<html>
<title> - HOPE DEFERRED: SECURING ENFORCEMENT OF THE GOLDMAN ACT TO RETURN ABDUCTED AMERICAN CHILDREN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










                 HOPE DEFERRED: SECURING ENFORCEMENT OF
                   THE GOLDMAN ACT TO RETURN ABDUCTED
                           AMERICAN CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2016

                               __________

                           Serial No. 114-223

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-751PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Karen Christensen, Deputy Assistant Secretary, Bureau of 
  Consular Affairs, U.S. Department of State.....................     3
Chris Brann, M.D. (father of child abducted to Brazil)...........    23
Ms. Ruchika Abbi (mother of child abducted to India).............    30
Mr. James Cook (father of children abducted to Japan)............    59
Ms. Edeanna Barbirou (mother of child abducted to Tunisia).......    78

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Karen Christensen: Prepared statement........................     6
Chris Brann, M.D.: Prepared statement............................    27
Ms. Ruchika Abbi: Prepared statement.............................    36
Mr. James Cook: Prepared statement...............................    67
Ms. Edeanna Barbirou: Prepared statement.........................    83

                                APPENDIX

Hearing notice...................................................    96
Hearing minutes..................................................    97
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Letter from Mr. Elijah Jackson.................................    98
  Letter from the Honorable Jim McDermott, a Representative in 
    Congress from the State of Washington........................   100
  Statement from the Honorable C. A. Dutch Ruppersburger, a 
    Representative in Congress from the State of Maryland........   101
Written responses from Ms. Karen Christensen to questions 
  submitted for the record by the Honorable Christopher H. Smith.   102
 
                  HOPE DEFERRED: SECURING ENFORCEMENT
                      OF THE GOLDMAN ACT TO RETURN
                       ABDUCTED AMERICAN CHILDREN

                              ----------                              


                        THURSDAY, JULY 14, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2255 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and 
welcome.
    I want to thank all of you, especially all the left-behind 
parents I see in the audience for joining us this afternoon to 
discuss what the U.S. Department of State's second annual 
report under the Sean and David Goldman International Child 
Abduction Prevention and Return Act tells us about the 
Department's implementation of the Goldman Act thus far.
    It is worth noting that the numbers of new abductions from 
the United States in 2015 remain below the pre-Goldman Act mark 
probably due to increased abduction prevention. So I want to 
commend the Department for a myriad of efforts it has 
undertaken on the prevention side.
    According to the report, 600 more children were abducted to 
other countries last year, quickly replacing the 229 children 
abducted in various years, not just last year but obviously 
previous years as well, who were returned.
    Overall, approximately 1,000 remain in a foreign country 
separated from their American parent. As many of you have 
experienced, international parental child abduction rips 
children from their homes and whisks them away to a foreign 
land, alienating them from the love and care of the parent and 
family left behind.
    Child abduction is child abuse and continues to plague 
families across the United States and across the world. For 
decades the State Department has used quiet diplomacy to 
attempt to bring these children home.
    In a hearing I held on this issue back in 2009 former 
Assistant Secretary of State Bernie Aronson called quiet 
diplomacy a sophisticated form of begging.
    Thousands of American families who suffer unspeakable agony 
from years of unresolved abductions confirm that quiet 
diplomacy is inadequate. Of course, conversations and contact 
are important but they need to be backed up with concrete 
actions as well.
    In 2014, Congress unanimously passed the Goldman Act to 
give teeth to requests for return as well as for access. The 
actions against noncooperating governments required by the law 
escalate in severity and range from official protests through 
diplomatic channels to the suspension of development, security, 
or other foreign assistance.
    Extradition of abducting parents also may be the case. The 
Goldman Act is a law calculated to get results as we did in the 
return of Sean Goldman from Brazil in 2009 and I stay in very 
close contact with them and both father and son are doing 
extremely well.
    This year's report as required by the Goldman Act singles 
out 19 countries in total including India, Brazil, Japan, and 
Tunisia for failures to work with the United States in the 
return of abducted American children.
    For instance, the report notes 83 abductions to India still 
open at the end of the year with 25 of those being new in 2015. 
Only one was closed with a court-ordered return to the U.S.
    These numbers will continue to climb each year until India 
creates a mechanism for resolution. Right now, India is a 
magnet for abductions because the taking parents are almost 
guaranteed to get away with their crime.
    Brazil had 17 abduction cases open at the end of 2015 with 
a 27-percent resolution rate. Brazil has been a Hague 
Convention partner with the United States in 2003 and has yet 
consistently failed to comply with the Hague Convention.
    Devon Davenport, who has testified before this 
subcommittee, has won every one of his 24 appeals in Brazil's 
courts over the last 7 years and yet he still cannot get his 
daughter, Nadia, home.
    If there ever was a textbook case for sanctions, Brazil is 
it. They have met the legal threshold ten times over. The 
report lists Japan as a ``country that has failed to comply 
with one or more of its Hague Convention obligations'' 
specifically ``in the area of enforcement of return orders.''
    Multiple parents have won victories in court only to 
discover Japan has what the report calls ``systemic flaws'' 
with enforcement. What remains inexplicable is why Japan was 
kept off the list of noncompliant countries for a second year, 
thus shielded from the imposition of sanctions prescribed by 
the Goldman Act, even though the Department condemns them for 
systemic flaws in their ability to enforce court orders.
    Failure to enforce return orders is a sufficient trigger 
for landing on the noncompliant list and I say that again. In 
the plain meaning and text of the Goldman Act that is enough to 
trigger being listed as noncompliant.
    One parent had to go outside of the Convention framework to 
achieve enforcement in an extraordinary case resolved after the 
reporting period.
    The report should also should have counted against Japan 
the 40--count them--40 pre-Convention abduction cases it 
mentions as still pending, most of them for more than 5 years.
    Countries should be listed as worst offenders if they have 
high numbers of cases--30 percent or more--that have been 
pending for more than a year. Again, in Japan--most of these 
are more than 5 years.
    Countries may also be listed if their law enforcement, 
judiciary, or central authority for abductions regularly fails 
in their duties under the Hague Convention or other controlling 
agreement or if the country simply fails to work with the 
United States to resolve the cases.
    Accurate reporting, including inclusion of the worst 
offenders list, is critical to family court judges across the 
country and parents considering their child's travel to a 
foreign country where abduction or access problems are at risk.
    However, reporting is just step one. Once these countries 
are properly classified, the Secretary of State then determines 
which of the aforementioned actions the United States will 
apply to the country in order to encourage the timely 
resolution of cases.
    Such actions should bring an end to the nightmare of the 
Elias family whose children, Jade and Michael, who live in New 
Jersey but they now have been abducted to Japan, and have been 
missing in Japan for 8 years.
    Michael, their father, has testified before our 
subcommittee twice in the past, an Iraqi war veteran, and it is 
heartbreaking like it is for the other families that are here 
to know that their children languish in a setting where 
parental alienation causes severe and significant deleterious 
effects to their mental health and that has been well proven. 
And the longer the years the worse it, arguably, becomes for 
those children.
    We have a panel of family members, left-behind parents who 
will be testifying after Ms. Christensen. But I would like to 
thank them for being here and then I'd like to now introduce 
Ms. Karen Christensen, who has served as Deputy Assistant 
Secretary of State for Overseas Citizens Services since August 
2014.
    Most recently, Ms. Christensen was the Minister Consular 
for Consular Affairs at the U.S. Embassy in Berlin where she 
coordinated consular operations at several posts in Germany 
Prior to that she was Consul General in Manila.
    She also served in Washington within the Bureau of Consular 
Affairs in the Visa Office in the Office of Executive Director. 
Overseas, she has served as a consular officer in London, 
Bucharest, Warsaw, and Seoul.
    Other Washington tours include serving as an instructor in 
the Consular Training Division and a Career Development Officer 
in the Bureau of Human Resources.

STATEMENT OF MS. KAREN CHRISTENSEN, DEPUTY ASSISTANT SECRETARY, 
      BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Christensen. Chairman Smith, thank you for this 
opportunity to discuss international parental child abduction.
    This issue is one of the highest priorities of the 
Department of State. My testimony today will summarize my 
written statement, which I request be entered into the record.
    Mr. Smith. Without objection, so ordered.
    Ms. Christensen. Mr. Chairman, I would like to thank you 
for your leadership on this issue. We continue to use our 
diplomatic engagement with countries to prevent or resolve 
abduction cases using the tools you gave us in the Sean and 
David Goldman International Child Abduction Prevention and 
Return Act of 2014.
    In preparing the recently released 2016 report, we used the 
feedback we received from you as well as from parents, judges, 
and our partners at the National Center for Missing and 
Exploited Children to make the report a more helpful resource 
for parents, judges, and family law attorneys.
    The 2016 report includes additional narrative statements 
and country-specific information that will make it a powerful 
tool for resolving cases in the year to come.
    Mr. Chairman, we are getting results. In 2015, 299 abducted 
children were returned to the United States. The majority, 213, 
returned from countries we are partnered with under the 1980 
Hague Convention on the Civil Aspects of International Child 
Abduction.
    More than that, thanks to new measures in the law we have a 
liaison agreement with the Department of Homeland Security and 
a full time Department of State employee now serves at the 
Customs and Border Protection National Targeting Center. This 
allows for seamless communications and since the law took 
effect we've prevented over 140 potential abductions.
    We have prepared congressional reports on our international 
parental child abduction work since at least 2007. Our 2015 
report was the first issued under the new requirements of the 
act.
    As the parents here today with us know, each abduction case 
is unique. To reflect this fact and the complexities involved 
in resolving these cases, in preparing the 2016 report we added 
narratives that give context to the statistics.
    We regret that this report was late. This year we 
completely reworked the format of the report to make it a more 
useful resource for families and we are taking steps to ensure 
that this delay does not happen again next year.
    Building on last year's work we believe that the 2016 
report is a significantly more helpful tool for all 
stakeholders. We are using the report to focus our efforts to 
collaborate with your constituents, advocacy groups, our 
interagency partners, foreign government counterparts and with 
you, Members of Congress, to return children home. We are 
getting results.
    In May, Japan successfully enforced its first court order 
under the Convention and four children returned with their 
mother to the United States. I was in Japan for bilateral 
meetings on abductions when the Japanese court enforced the 
return order.
    So I was able to witness first-hand the strong cooperation 
between our two countries that helped resolve this case and I 
am pleased to inform the subcommittee that on July 8th a second 
Convention case was resolved successfully following the 
enforcement of a Convention return order and a father was 
reunited with his son.
    Both have returned to the United States. We are optimistic 
that these two groundbreaking cases are a turning point in 
Japan's ability to comply with the Convention and the beginning 
of a pattern of success for the Convention in Japan.
    The report highlights our deepening engagement with 
countries that have become party to the Convention. As a result 
of those efforts in early 2016 we welcomed Thailand as our 74th 
partner under the Convention and we look forward to potential 
partnership review of the Philippines which became party to the 
Convention last month.
    Yet, we know that despite these positive diplomatic results 
some families continue to suffer as their children remain 
across an international border and we have much more work to 
do.
    In the 2016 report, we cited 13 Convention partner 
countries that either demonstrated a pattern of noncompliance 
or failed to comply with one or more of their obligations under 
the Convention in 2015 as defined by the act and we cited eight 
nonconvention countries that demonstrated a pattern of 
noncompliance in 2015 as defined by the act.
    Mr. Chairman, distinguished members of the subcommittee, we 
constantly strive to increase our effectiveness and always look 
for ways to collaborate with our partners including you, 
Members of Congress, who have committed so much time and energy 
to addressing this very important and urgent issue.
    We will continue to get results. Let me emphasize my 
personal commitment and the Department's dedication to 
preventing international parental child abductions and 
safeguarding and returning abducted children to their places of 
habitual residence.
    I appreciate your feedback and suggestions and I look 
forward to your questions. Thank you.
    [The prepared statement of Ms. Christensen follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
  
                              ----------                              

    Mr. Smith. Ms. Christensen, thank you very much for your 
testimony and I do agree that this year's report is certainly 
more readable and I thank you for that.
    I do have a number of questions and let me first--I deeply 
appreciate Secretary Kerry's letter of transmittal in the 
report where he says there can be no safe haven for abductors 
and I believe in his whole heart and soul he believes that. He, 
when he was a U.S. Senator, had family members of a constituent 
abducted in one case to Egypt.
    At one point we had the father testify and it was very 
compelling testimony and Egypt, of course, is on the list of 
non-Hague patterns of noncooperation and as it should be. But 
he, in the letter, he also makes the point that there has been 
an effort to stop abductions as they are happening.
    Can you elaborate? Have there been actual instances that 
you can cite, maybe a number and maybe without naming names but 
a situation where such an abduction was stopped in progress?
    Ms. Christensen. Sure. We have had actually a case--one of 
the things in the world of prevention, first of all, as 
mentioned we have an officer from our office who is permanently 
seconded now to the National Targeting Center. That allows for 
the communication to happen immediately when we hear of an 
abduction in process and I can tell you, because I read the 
duty officer reports, that my staff is involved in it every 
night. That means 24/7 somebody is on duty and I see every day 
there is at least one phone call that involved a parental child 
abduction.
    Not necessarily an abduction in process--sometimes they're 
calling to say I think this might happen, how do I protect 
myself, how do I get this stopped, how do I enroll my child in 
the program that prevents them from getting a passport without 
my permission. We're answering those calls 24/7.
    But because we have an officer now at the National 
Targeting Center and because in the Sean and David Goldman Act 
you gave us the tools--you gave CBP--Customs and Border 
Protection--some additional tools to be able to actually act on 
those abductions in progress we have been able to stop quite a 
number of those.
    I can think of one example, and this was quite 
groundbreaking, where a plane actually turned around and the 
plane had departed already--turned around and came back with 
the child who was in the process of being----
    Mr. Smith. Where was that plane heading to?
    Ms. Christensen. It was headed to China.
    Mr. Smith. So the child was reunited?
    Ms. Christensen. Yes, so the child was reunited. Another 
thing we're doing is working very closely with the airlines and 
the airlines are ramping up their training for staff to be able 
to spot the characteristics of a child who is being abducted or 
a situation in which the child is being abducted.
    So we are trying to come at this from a lot of different 
angles. We also have an interagency group that meets twice a 
year to discuss how we can all cooperate best on this.
    Mr. Smith. We have four very, very loving and committed 
parents--two mothers and two fathers--who will be testifying 
and I do hope your office knows about them, knows their cases 
well.
    But if you could take their testimonies to heart again, 
with a new commitment. Ms. Abbi, who is the mother of a child 
abducted to India, Mr. Cook, father of a child abducted to 
Japan, Dr. Brann to Brazil, his child Nico, and Ms. Barbirou to 
Tunisia.
    Now, all of those countries are listed as problem countries 
in the report and it is my sincere hope that the other shoe, 
and if you can give us any insight as to whether or not this 
will happen--the other shoe, which is the sanctions part, will 
that drop?
    I've authored a number of other human rights laws including 
the Trafficking Victims Protection Act of 2000 and it 
prescribes all kinds of penalties of countries on Tier 3 and 
very often we find on the enforcement side of the ledger 
there's a lot of admonishments but not a whole lot of 
penalties.
    On the International Religious Freedom Act there are 
countries called CPC countries, as you know so well, and very 
often they get a lot of good diplomatic chatter but not a whole 
lot by way of the 18 prescribed sanctions that are articulated 
in that legislation, which was enacted in 1998.
    And then so will there be a sanctions--serious sanctions 
effort that will follow now the naming of these countries?
    Ms. Christensen. There will be a serious evaluation of what 
next steps would be most appropriate for those countries and 
for each individual case.
    I know you've heard us talk about persistent diplomacy, 
about creating a steady drumbeat and I know sometimes when you 
look at the list of actions and it says we're going to raise 
these cases, we raise these cases at the highest levels and we 
engage with those countries at the highest levels.
    And there's a question I'm sure amongst all the parents 
about what does that mean, what is this diplomacy that you're 
engaging in? I know you've spoken with Ambassador Susan Jacobs, 
who's our Special Advisor for Children's Issues.
    You've spoken also with our Assistant Secretary, Michele 
Bond. Both of them travel frequently and everywhere they go 
they talk about these cases.
    I have been twice to Japan and spoken with the Japanese 
authorities there prior to these two returns that we've had. 
And I can tell you that those conversations, although we say 
raise the cases, it's much more than that.
    Those are very frank and, I will say, often very 
contentious discussions about the need to return these children 
with us pressing and pressing about things that can be done, 
suggesting, talking often with raised voices about these are 
steps that you can take to make these processes work.
    Let me give you also an example from this week. I don't 
want to name a name or a country, but we had a very 
longstanding case in a non-Hague country, a case in which we 
were actually seeing some positive movement and we were 
expecting that it was quite close to resolution.
    We heard from the left-behind parent some very distressing 
news about how things were proceeding. That very next day 
Ambassador Susan Jacobs was in speaking to the Ambassador from 
that country.
    Our post in that country went out and met with two 
different ministries in the government and really working 
together to try to figure out what we believe will be a way 
forward that will protect both the child and the left-behind 
parent and lead, we hope, to a resolution.
    Mr. Smith. Let me ask you, on page 13 mention was made of 
the 213 returned from Convention countries, 86 from countries 
adhering to the protocols with respect to child abduction.
    One of the provisions, Section 103, calls for not later 
than 180 days after date of enactment the Secretary shall 
initiate a process to develop and enter into appropriate 
bilateral procedures including a memorandum of understanding as 
appropriate.
    It's an issue regarding Japan and India that I have raised 
for 7 years and maybe even longer but certainly at least that 
long and it seems to me that the bitterness of a Japanese left-
behind parent whose child has been abducted to Japan is 
exacerbated and compounded as if they'd been left a second time 
when there is no procedure for those remaining cases.
    And just calling a case closed because a child ages out or 
something along those lines is, you know, is--maybe they'll see 
them, maybe not someday but it's awful, in my opinion, for 
these families, some who have waited, you know, more than a 
decade, like Paul Tolland--well over a decade.
    I have a big difference of opinion with the administration 
on this but I hope it'll be revisited. The MOUs have to deal 
with these other, you know, left-behind parents the second time 
because, as we all know, ratification of the Hague Convention 
starts at the date of ratification and everyone before that may 
get in, as was said earlier in previous testimony, by the good 
will that's generated. I don't believe that for a moment.
    The culture takes a long time to change and if it's, again, 
those 40, for example, cases in Japan we'll still have 40 next 
year. Or though some may age out again and we'll be counting 
that as fewer cases. But that's really a poor excuse for true 
resolution.
    So my question is about the MOUs and if you could tell us 
as well how many of the cases after the reporting period 
calendar year, December 31st, of those 4 have any of the 40 
been resolved since then? We're 6 months plus into the new 
year. Anybody on that list been truly resolved by bringing the 
child home?
    Ms. Christensen. Let me start first by saying something 
about MOUs and why we continue to believe that the Hague 
Convention is so important because MOUs are simply a collection 
of what procedures already exist.
    They don't create any new legal structures or any new 
potential enforcement structures and that's one of the 
difficulties that we see when we talk about MOUs and we always 
bring up MOUs and bilateral agreements with countries when 
we're talking about this.
    But, quite frankly, because they don't create new legal 
structures they don't have teeth behind them.
    Mr. Smith. But they could create new administrative 
structures that would have the force of law--that a country 
that's committed and really feels that there is a penalty 
awaiting them, a sword of Damocles of some level in terms of a 
sanction, a country doesn't necessarily have to go through the 
Diet or through their Congress or Parliament, although that 
would be nice, it could still----
    Ms. Christensen. It doesn't create a new legal structure 
for them to enforce something. Let me talk a little bit about 
Japan.
    Mr. Smith. Again, they can do it by administrative action. 
I mean----
    Ms. Christensen. Some things.
    Mr. Smith [continuing]. We make law all the time by Federal 
regulation that is given vague advice by Congress only to--or a 
vague mandate and then all kinds of things are promulgated with 
the same exact force of law and penalties that accrue thereon 
if you don't follow them.
    Ms. Christensen. I would also point out that there are 
countries in which we do have bilateral agreements and 
bilateral arrangements and all three of those countries are 
cited here for noncompliant. They're non-Hague countries that 
are under the pattern of noncooperation.
    Let me talk a little bit about Japan, what exists now for 
the parents who are in that pre-Hague, those earlier cases. 
While they cannot file for a Hague return order, what they can 
file for is a Hague access.
    They can file a Hague access case. That puts a little more 
force of government behind it, creates a few more tools at 
their disposal to--for Hague access cases.
    We have encouraged parents to do this. A number of parents 
have filed Hague access cases. Not all parents have. That's, of 
course, their choice. We have seen some limited success there. 
We have seen a number of----
    Mr. Smith. How many have had success?
    Ms. Christensen. I'd have to look up exactly how many have 
had success. Has been a handful, I would say. I don't have the 
exact number in front of me, and success means--and let me 
qualify that because I know this is not what the parents would 
deem a success nor is it what we're looking for as an ultimate 
resolution.
    But there are parents who have gained some limited access 
through the tools that the Japanese Government has put at their 
disposal and helps to manage and this limited access, of 
course, in these cases that are very, very longstanding, this 
access is the first step toward rebuilding that relationship 
that then hopefully will lead to the children also saying yes, 
I want to be joined with that family and I want to rejoin the 
left-behind parent.
    So I understand that that's not a full success but we 
believe that that is a first step toward that.
    Mr. Smith. But again----
    Ms. Christensen. But we believe that that is a first step 
toward that.
    Mr. Smith. Having the child say pro or con, he or she wants 
to do that or they--children, siblings--is not in any way a 
determinant. I mean, in the Sean and David Goldman case the 
lawyers went out of their way to even put Sean Goldman in front 
of a camera with prompts for him to say how he wanted to stay 
in Brazil.
    Talk to Sean Goldman now and there's--and there's no doubt 
that he was pressured into that kind of exchange. And I would 
fear taking the word of a 5-year-old----
    Ms. Christensen. I'm not--I'm not saying that at all. I'm 
not saying we just take the word for the child. I'm saying that 
that creates--that starts to rebuild that relationship that has 
suffered by being--by that long-term separation.
    Can I also say something about India, since you mentioned 
India?
    Mr. Smith. Sure.
    Ms. Christensen. India, as you know, we have been talking 
to India for a long time and pushing India to join the Hague 
Convention and one of the sticking points has always been that 
they needed legislation to facilitate their accession to the 
Hague.
    That legislation has now been drafted. It has been put out 
for public comment and the public comment period has closed. So 
they are actually taking a step toward Hague accession.
    And another significant milestone in our work with India 
has been that for the very first time this has been mentioned 
by the prime minister. It was in the joint statement during 
Prime Minister Modi's state visit here recently and there was 
mention of international family matters in there and that is 
really a significant milestone that has been mentioned at that 
high level in India publicly.
    Mr. Smith. When the President and the Secretary of State 
met with Modi--I met with him, very briefly. I introduced him 
to Bindu Philips who has been waiting for years to even see her 
two sons.
    The police department in New Jersey has documented that not 
only did the husband abduct her two children, and did so in the 
most fraudulent of ways, there's also a lot of theft involved 
and she was left pretty much destitute without her two children 
and her husband.
    I mentioned it to Modi. He listened. I don't know if he'll 
do anything. I've met with the Ambassador on that case and 
several others--the Ambassador to the United States from 
India--and he stressed how important it was that we speak with 
respect to each other and I can tell you I deeply respect 
India. It's a robust democracy. But if it's failing and 
engaging in egregious human rights abuse against American 
children. I've had hearings on the Dalits and how they're 
abused in India.
    We've had hearings on the endemic problem of child sex 
tourism within as well as into India.
    All of that laid aside, we respect India, but solve these 
cases. And so I would, again, say to the Ambassador as I did 
privately there is no disrespect here. It's just the opposite.
    We expect you to live up to the highest standards 
articulated in the Hague Convention. Whether you sign it or 
not, it is an international human rights norm and a treaty and 
a law for those who sign it.
    But for the ones who, again, will be left out, I would 
encourage you in the strongest way to be thinking about an MOU 
that would--and I do believe new procedures could be included 
in an MOU. In countries and administrations, executive branches 
have wide latitude to come up with mechanisms that will 
effectuate the return of children.
    And Bindu Philips, like so many others are quintessential 
examples of abuse and just like I said earlier some of these 
folks like in Brazil win court case after court case and they 
still don't have their kids.
    So I can't say enough. It's in the law about the MOU and 
Congress wants this. It was a bipartisan law and while three 
countries may not have lived up to an expectation of an MOU 
being effectual, it can be if it's made to be effective. It's a 
matter of prioritization, both sides, and doing it. And again, 
for the Japanese left-behind parents, having met with them so 
often and so many places, heard their testimonies but even more 
so heard them tell their stories with tears in my office and in 
other venues.
    You've heard it too. We've got to be the wind behind their 
backs and that goes for all of the countries, of course. But 
they feel and they felt it then. Of course, sign Hague, ratify 
Hague. But don't leave us out again.
    So I would encourage you please go back and think of an MOU 
vis-a-vis these countries that would really make this real.
    Ms. Christensen. Let me just say, for one of those non-
Hague cases there was a case where the father is currently 
visiting his son and the older son already came back under a 
voluntary return.
    I realize that is not a complete success for everybody but 
I think that is the beginning of a step in the right direction.
    Mr. Smith. You mentioned in the report on page 10 that 
approximately 100 judges from 65 countries are part of the 
judges network. How many Japanese, Tunisian, Indian, and 
Brazilian judges are a part of that?
    Ms. Christensen. I don't have the numbers of how many 
judges there are from each country. I know that we certainly 
have met with Japanese judges.
    We have met with the Japanese judges. I think they only 
recently have officially declared that they are judges who are 
part of the Hague network.
    We have our own Hague network judges that go out and visit 
with judges in all of these countries to talk about it on a 
peer to peer basis because often that is also effective and 
because our Hague network judges have travelled to a number of 
countries and they're familiar with a number of different legal 
systems.
    We think they are a very effective tool for helping to 
explain particularly to new Hague countries how Hague can fit 
within their legal system.
    Mr. Smith. Let me just ask a couple of final questions and 
I thank you again for being here. Could you elaborate on page 
32 on Japan's section? It seems to be in its own category, a 
limbo where I think it should be a pattern of noncompliance 
because of the so many unresolved cases.
    Where do they sit and, secondly, just to quote the report, 
it says at the end of 2015, 40 open pre-Convention abductions 
remained. Of these, 32 were with the Japanese Ministry of 
Foreign Affairs for more than 12 months. In 2015, one pre-
Convention case was resolved and 11 cases were closed and maybe 
you can explain. By closed were they aged out? What was that?
    And then you point out that in 2015 Japan failed to comply 
with its obligations under the Hague abduction Convention in 
the area of enforcement of return orders. So now we're talking 
about the actual Convention and of course if you don't have 
enforcement you don't have anything. You know, ask so many of 
the left-behind parents.
    When the police fail to deliver the child or whatever the 
law enforcement mechanisms was, and then you say exposing what 
may be a systemic flaw in Japan's ability to enforce return 
orders.
    What are we doing to push back on that? It seems to me that 
if any part of the stool is broken kids don't come home.
    Ms. Christensen. Right. Those are some of the most 
contentious discussions I can tell you that we've had is the 
discussion the enforcement and what Japan could do to improve 
its enforcement of the orders.
    Here in this section when we're talking about 2015 in 
Japan, while there were several ordered returns or there were 
several return orders, the way the system works in Japan 
there's then another step that you have to take to actually 
request that those orders be enforced.
    In 2015 there had been an attempt--one attempt to enforce 
one order. That was not successful. That particular case didn't 
then come for another attempt to--for to enforce the return 
order until January 2016.
    So what we were looking at in terms of enforcement was we 
believed not a pattern of a lack of enforcement because there 
had only been a single attempt in a single case. But we did 
have concerns about the entire mechanism that existed for 
enforcement and whether that was going to lead to ongoing 
problems in the enforcement of return orders. Japan has 
actually issued a number of return orders and now we're into 
the enforcement phase and that's something that we're watching 
very, very carefully.
    I mentioned that two of those return orders have been 
enforced so far this year. You yourself mentioned that one 
parent had to go outside the Hague for the eventual 
enforcement.
    Mr. Smith. Given that track record and, again, I think the 
narrative on Japan is chilling, how does it not rise to the 
level of persistent failure as----
    Ms. Christensen. We were looking at that enforcement in 
2015. Those records were then enforced in 2016. As I said, 
there had only been one attempt.
    Question was was that a pattern or was that a failure in a 
particular area. We think there was a very--Japan has a very 
well-resourced central authority. They provide counselling. 
They have a whole lot of resources.
    But if the children don't return then that's a failure in 
that particular area which is the enforcement of the return 
order.
    I will say although that--in that case they did have to 
ultimately go beyond the Hague--the Hague procedures in order 
for that return to be enforced in that first case. And as I 
said, I was there while that was happening. There was quite a 
lot of drama associated with it.
    But I think that what that shows--what we hope that shows 
is that it was a commitment on the behalf of the judicial 
authorities in Japan, even beyond the Hague procedures to see 
those orders enforced.
    And what we really hope is that that will then be an 
incentive for other parents to cooperate sooner in the process. 
That is what we see as one of the greatest benefits of the 
Hague Convention is to discourage parents from committing these 
abductions to begin with.
    Mr. Smith. On the International Visitor Leadership Program, 
in 2015 the report says that judicial, administrative, and 
other leaders from 15 nations came here to learn how we do it. 
Were those nations Tunisia, Brazil, Japan or India, or other 
countries? I mean, what are the 15?
    Ms. Christensen. I don't have the list in front of me and 
we can certainly take that question back and send you that 
list. I know that we go out of our way to invite the countries 
that we believe do have the biggest challenges.
    So we would invite judges from Brazil. I know that there 
was a group from Japan that visited this past year. I know that 
we particularly invite countries where we believe they could 
most benefit from our discussions. We're not going to invite 
necessarily the countries where things are working smoothly.
    They don't need our help. We're going to invite the 
countries where we really think we have something to contribute 
in trying to make this work better.
    Mr. Smith. Since they would stand out, were there any 
judges from Japan? Stand out because their judicial system has 
shown itself to be so flawed when it comes to implementing 
these cases.
    Ms. Christensen. I don't believe judges from Japan have 
travelled here. However, I do know that our Hague network 
judges have travelled there and spoken to them in Japan on 
several occasions.
    Mr. Smith. That's about all I have.
    Again, I would again ask you to please take the MOU request 
seriously. It is in the law, prescribed in the law. I think 
without it we'll be back here next year and the year after that 
and the year after that talking about maybe a diminishing 
number of cases from countries but only because individual 
children will have aged-out or perhaps the parents just 
exhausted financially, emotionally, and physically from this 
trauma; I don't know how any of these parents can endure this.
    We have cases where we know there are concerns on whether 
or not the children are being abused, where there was history 
of abuse in the family. We have situations where bad advice was 
given by JAG officers, and I've read the report and I know at 
by nearby university, George Mason, 400 or so JAG officers got 
training and I think that's a good thing.
    Ms. Christensen. We also did training.
    Mr. Smith. The more we train the better, and thank you for 
that.
    Ms. Christensen. We also did training actually in Naha with 
JAG officers there. That was just this year. That was in May.
    Certainly, I would like nothing better than for there to be 
no need for us to come up here, not because it bothers us to 
come up here but because we would like this problem solved.
    Mr. Smith. It has been my experience 36 years as a Member 
of Congress that when it comes to human rights even of our own 
citizens, very often other issues have a way of crowding out 
that concern. So it slips from page 1 to page 5 to an asterisk 
somewhere.
    And it is very troubling that the parents say to me how 
discouraged they get dealing with our Government. They don't 
want to complain too much.
    They're fearful there could be a backlash, that people 
would say well, if you're going to be so concerned well, forget 
it. I'm going to go slow on your case. I don't know if that's 
happened and I wouldn't think it could happen----
    Ms. Christensen. Let me put that to rest right away. 
Parents should not ever feel shy about contacting us about 
that.
    Mr. Smith. And being critical. I mean----
    Ms. Christensen. And being critical, and----
    Mr. Smith [continuing]. Who gets more criticism than 
Members of Congress? But I think it serves a purpose. It 
sharpens everyone's thoughts with regards to what course ought 
to be taken and I think the same goes for----
    Ms. Christensen. And we value very much our collaboration 
with the parents in trying to figure out what's the best way 
forward in any individual case.
    Circumstances are different in each individual case and 
what might work in one might not work in another. So it's very 
important for us to have a very close collaboration with the 
families and talking about what's the best way forward.
    Mr. Smith. In terms of noticing Members of Congress when 
there is a case from their district, of course, we wrote that 
into the Goldman Act but we made it so that it was an opt-in on 
the part of the parents.
    Are the Office of Children's Issues personnel advising 
families that an advocate could be your Congressman or 
Congresswoman? Is that okay if we do it? Do you have an X in 
the box somewhere?
    Ms. Christensen. I know it's something that we ask parents 
about all the time, yes--can we notify your Member of Congress, 
would you like us to notify your Member of Congress.
    Mr. Smith. And what do most them say?
    Ms. Christensen. I think most of them say yes.
    Mr. Smith. And do you? I mean, is there a formal letter 
that goes out to the members?
    Ms. Christensen. How we do notify them, yes. In fact we 
went back also to all the old cases and asked them.
    Mr. Smith. That's very good. Thank you.
    And again, I would just make the strongest appeal that as 
you look at part two, the sanctions regime because they are 
stale and toothless if they're not employed.
    You have all kinds of options pursuant to the Goldman Act 
whether it be an escalating effort and certainly the countries 
on the list and I would hope that Japan would soon be named for 
what it is rather than in this special category, that I don't 
know what it is, with Austria. Why is it there?
    Ms. Christensen. Well, as I said, it is in the law. There 
is a provision in the law that says has failed to comply with 
one aspect and in looking at it we felt, when looking at the--
particularly when looking at their Hague compliance, that we 
hadn't seen a pattern yet. This does not mean a pattern cannot 
exist in the future and it's--we're keeping a very close eye on 
Japan.
    It is something that we're watching very, very carefully. 
We continue to talk to the Japanese frequently on this issue.
    Mr. Smith. Okay. But again, even according to the narrative 
set forth on the situation on the ground in Japan only one of 
these have to be true, and one of them is law enforcement 
authorities regularly fail to enforce return orders.
    Even the one that was procured under the Hague Convention 
went afoul and all the others simply haven't happened yet. 
That's beyond the pattern. That's almost uniformity.
    So I would hope even now you'd go back and relook at this. 
Nothing precludes you from putting this back.
    Ms. Christensen. We're reevaluating everything for the next 
year's report.
    Mr. Smith. You could designate Japan tomorrow, if you'd 
like, based on the record, a reappraisal that it's a country 
that has persistently failed and therefore it's a pattern of 
noncompliance because it really is.
    Because I don't understand that, in all candor, because we 
wrote the law. It's clear as a bell. I thank you.
    Ms. Christensen. Thank you.
    Mr. Smith. And again, look at the sanctions regime. If we 
use them, use them judiciously I think we will see a much 
sharper response from each of these countries and the net 
beneficiaries will be these American children and their 
agonizing left-behind parents.
    Thank you.
    Ms. Christensen. Thank you.
    Mr. Smith. I'd like to now welcome to the witness table our 
second panel, beginning with Dr. Chris Brann, who is a 
physician in Houston, Texas. He received his B.S. in biology 
from the University of Texas-Pan American and a joint MBA-MD 
from Rice University and the Baylor College of Medicine.
    He completed his medical residency in internal medicine at 
Baylor College of medicine and affiliated hospitals where he 
currently practices in internal medicine and is an assistant 
professor.
    On July 1, 2013, his then wife, Marcelle, abducted their 
son, Nico, to Brazil and he has been before us before and we're 
all looking forward to his statement today.
    We'll then hear from Ms. Richika Abbi who has been a legal 
permanent of the U.S. since 2010 and a citizen of India 
residing in Virginia, employed with Amazon Web Services. She 
came to the United States on a student visa in the year 2000. 
In 2001 she married a man from India in 2001 named Seth and 
they both came to the United States with the intent of 
permanently settling here.
    Her child, Roshni Seth, is a U.S. citizen by birth born in 
2007. Roshni resided with both parents in Virginia in 2014 when 
she was uprooted from her habitual residence and abducted to 
India by her father after he was convicted of violently 
assaulting her mother. Ms. Abbi has been desperately seeking 
her daughter's return to the United States for the last 2 
years.
    Then we will hear from Mr. James Cook, who's the father of 
four children, two sets of twins, who have been in Japan for 2 
years. Later this month will be the 1 year anniversary of his 
Hague application to return his children to Minnesota.
    In this time, he has only been allowed one visit with this 
children. All other contact was unilaterally severed by the 
taking parent.
    The last contact and reply from his children was late 
August 2015. Mr. Cook works for Boston Scientific Corporation, 
a manufacturer of medical devices in Minnesota.
    We'll then hear from Ms. Edeanna Barbirou, who is the 
mother of an abducted child to Tunisia and their two children 
named Zainab and Eslam Chebbi, who were abducted by their 
father to Tunisia. The family resided together in Maryland 
until February 2010 when Edeanna obtained a protective order 
and was able to remove herself and the children from the family 
home.
    In January 2011, she and her ex-husband signed a legal 
separation agreement granting her full legal and physical 
custody of the children in exchange for maintaining visitation 
every other weekend, adding 1 weekday afternoon with the 
children with no child support.
    In November 2011, however, her ex-husband picked up the 
children from their routine weekend visitation. It was later 
discovered that his friend drove them directly to Dulles 
Airport to depart to Tunisia.
    Just four very compelling cases and I thank you for coming 
here to share with the subcommittee, to the Congress, and I 
hope the executive branch as well and I thank you for staying 
to hear your testimonies.
    Dr. Brann.

  STATEMENT OF CHRIS BRANN, M.D. (FATHER OF CHILD ABDUCTED TO 
                            BRAZIL)

    Dr. Brann. Good afternoon. My name is Chris Brann. My son, 
Nico, was abducted from Houston, Texas and taken to Brazil by 
my ex-wife 3 years ago in July 2013.
    Before I begin, I'd like to personally thank you, 
Representative Smith, Chairman Smith, for your tireless 
advocacy, unwavering support of my case and all of these cases, 
and holding this hearing today.
    Additionally, I must note that Ambassador Bond and 
Ambassador Jacobs, U.S. Ambassador to Brazil, Liliana Ayalde, 
have all been involved in my son's case for many years and have 
expressed continued interest in seeing Nico returned home.
    I'd also like to thank Deputy Assistant Secretary Karen 
Christensen for her remarks and her report.
    My son Nico was born September 14, 2009. He's a cheerful, 
playful, and beautiful little boy and I love him deeply and I 
miss him deeply.
    My ex-wife, Marcelle, and I separated in 2012 and while 
there were some irreconcilable differences we agreed on joint 
custody so that both of us could be in Nico's life. I did 
everything I could to protect Nico. When Marcelle, my ex-wife, 
asked if she could travel with Nico to Brazil to see her family 
I was hesitant.
    I had heard the horror stories and I was familiar with Sean 
Goldman's case. But I said yes on the condition that we had a 
travel agreement in place making clear that she would bring 
Nico home.
    And I knew all the Texas court orders made clear that 
Nico's permanent domicile was in Texas. I am the textbook 
classic case of somebody who did everything they possibly could 
do to protect themselves.
    The law, I thought, was on my side. I was so incredibly 
wrong. In Brazil, I learned much later, that my ex-wife had 
immediately filed for sole custody of Nico, hiding the fact 
that we already had a joint custody agreement in Texas.
    We now know that Nico's abduction was premeditated, 
facilitated by the school owned by Marcelle and her family. 
This means that she had been lying to me and to the Texas court 
when she signed the travel agreement. She never planned to 
bring Nico back.
    I immediately filed a claim under the Hague Convention on 
the Civil Aspects of International Child Abduction to have my 
son returned home to Texas and I also challenged the Brazilian 
court order of sole custody.
    That was 3 years ago. Today, after 17 visits to Brazil and 
five to Washington, DC, things have actually gotten worse, not 
better, and there is no end in sight.
    In July 2015, a Brazilian Federal court issued its final 
decision under the Hague Convention. The presiding judge, Arali 
Duarte, wrongfully found that Nico was well settled and refused 
to order his return.
    Under the Hague Convention, that exception to prevent a 
return can only be invoked by a judge if the left-behind parent 
waited more than a year to file their case. I did not.
    Also surprising was that the only precedent that the judge 
cited to justify her action was an old decision in the Sean 
Goldman case, which was later overruled by the Brazil Supreme 
Court. Apparently it did not matter that Sean Goldman had been 
back in New Jersey for more than 5 years.
    I am now looking at years of appeals and meanwhile the 
state court in Brazil that gave my ex-wife sole custody has 
refused to revisit that decision. It has even issued further 
rulings on custody, visitation, and child support.
    Now, every time I go to Brazil there is a risk that I will 
be thrown in jail because I refuse to finance my own child's 
abduction by paying the $3,000 a month child support payment 
that was ruled by the Texas state court judge, effectively 
rewarding Marcelle for illegally abducting my son.
    There have been some small steps forward. The Government of 
Brazil agrees that Nico was abducted and must return to the 
United States.
    In January, based on a request from the FBI, Interpol 
issued a yellow notice for Nico declaring him missing and the 
Brazilian Prosecutor General has opened two investigations, one 
a criminal and one civil into Marcelle's wrongdoing.
    But despite these developments, Nico is still not home and 
there are no prospects that he will ever be returned, certainly 
not anytime soon.
    These have been the longest 3 years of my life. Today, I 
only see Nico less than 1 percent of the time and only in the 
presence of armed guards. When I do see Nico it's painfully 
clear that I'm losing my son.
    He doesn't speak English anymore. He doesn't remember his 
grandparents or his cousins. Whatever I ask he responds like a 
robot, saying Mommy doesn't like, meaning that he's not allowed 
to talk to me about it.
    Brazil's disregard of its international obligations and the 
unwillingness of our own Government to use the maximum 
resources at his disposal only add to my intense pain.
    While I am grateful that the State Department has been 
engaged on my case I'm incredibly disappointed that it has 
failed to take any action against Brazil for its persistent 
noncompliance with the Hague Convention for more than a decade. 
I cannot understand how Brazil allowed to continue to flout 
international law so blatantly without any repercussions.
    The Goldman Act provides eight different options to the 
State Department up to serious trade sanctions. In Brazil's 
case we have only used one--repeated demarches--and this has 
about the same level of force as a post-it note stuck to a 
window.
    Unless Secretary Kerry fully utilizes the Goldman Act's 
arsenal, the legislation is meaningless. Now, I know that 
you've heard countless left-behind parents testify to you and 
ask you to think as if these children were your own.
    I'm a physician and I'd like to use a different analogy, if 
you will. I want you to imagine that your child is hospitalized 
and they have one of these superbugs that's resistant to common 
antibiotics including penicillin.
    And I want you to imagine that I'm the doctor and that I 
continue giving your child penicillin knowing full well that it 
will not work.
    I come in every day and you ask why isn't my child getting 
better and I keep saying we're going to keep trying to give the 
patient penicillin, knowing full well that no patient has ever 
recovered by taking penicillin.
    That is the Einsteinian definition of insanity--doing the 
same thing over and over again and expecting a different 
outcome. Brazil does not respond to demarches. They do not 
respond to empathy. They do not respond to compassion. They do 
not respond to logic. They do not respond to reason.
    They respond to consequences. And the way that we have been 
treating Brazil is absolutely insanity. As far as I know, they 
have never returned a child to the U.S. through the Hague 
Convention. And I'm not talking about what's been ordered or 
not ordered. I'm talking about feet on the soil in the U.S.
    Now, everyone in this room is going to say Sean Goldman, 
Sean Goldman. But you and I both know that Sean Goldman was 
returned because of a trade bill that was put on hold.
    We both know that his order would not have been enforced 
unless people like you or other high-level officials had 
engaged directly.
    Effectively, we told Brazil that the consequence of not 
returning Sean Goldman would be so painful that they were 
forced to return him. More can be done. More has to be done.
    I, as Nico's father, will never give up on him and I'm not 
asking you to do things for me that I can't do for myself.
    As a physician I'm a gatekeeper between patients and life-
saving medications. And as lawmakers you're the gatekeeper 
between me and the things that I cannot do for myself.
    I implore my Government not to give up on him either. Nico 
is a U.S. citizen. He should be in home, in the United States 
with the family who loves him. I urge President Obama, 
Secretary Kerry and Ambassador Jacobs to act in my case and 
that of all the fine parents as if our children were your own.
    This is a living death. I need your help. Nico needs your 
help. There is no statute of limitations on the love for a 
living child. Please do more. Please find a way to bring him 
home.
    Thank you.
    [The prepared statement of Dr. Brann follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
                              ----------                              

    Mr. Smith. Thank you, Dr. Brann.
    Ms. Abbi.

  STATEMENT OF MS. RUCHIKA ABBI (MOTHER OF CHILD ABDUCTED TO 
                             INDIA)

    Ms. Abbi. Good afternoon, Chairman Smith, members of the 
subcommittee and officials from all other departments here as 
well as my fellow left-behind parents and their supporters who 
are present here in person and in spirit to advocate the return 
of our abducted children.
    My name is Rachika Abbi and I'm a permanent resident of 
U.S., a citizen of India residing in Chantilly, Virginia. My 
daughter, Roshni Seth, she is a U.S citizen and she was a mere 
6\1/2\ years of age when she was abducted to India by her own 
father and he refused to come back and bring her back home.
    I have been desperately seeking Roshni's return for over 2 
years. I was in India for almost 1\1/2\ years. I have been 
seeking her return to her home country where she was uprooted 
from, based on multiple court orders, not just from U.S. but 
also from Indian courts. But Roshni stays separated from me. 
She is deprived of my love and care and she is held as a 
hostage thousands of miles away.
    I am often seen carrying this teddy bear and maybe judged 
as well. Not many people know that what I carry is my hope, my 
hope which will be deferred. It gets dwindled from time to time 
but I strive really hard to keep it alive, to revive it and 
keep it alive every single second, every single minute, every 
single day.
    Roshni's bear, Riley, was actually abducted, or you may 
want to say, she accompanied her when she was taken and I was 
in India with Roshni and couldn't bring her back and Roshni 
sent her bear back with me, telling me Mama, I can't go back 
home but please take Riley home.
    Roshni's bear made it back. She stands with Roshni and I am 
moving heaven and earth here to bring Roshni home as well.
    It's not just Roshni. There are so many children out there 
who are victims of international parental child abduction, a 
crime committed not by a stranger but by one's own parent. 
These children are wrongfully abducted and detained in 
different parts of the globe, robbed of a loving parent and 
normal childhood.
    My heart goes out to all these children and their seeking 
parents across this nation. I am advocating the immense need to 
eradicate this global curse of international parental child 
abduction.
    I'm an active member of Bring our Kids Home and the 
underlying message in my testimony is that parents of American 
children like me, victims of international parenting kidnapping 
to India, is enormous and often insurmountable obstacles in 
seeking the return of our children.
    We receive little assistance from the U.S. Government and 
no assistance at all from the Indian Government. Despite the 
fact that these cases have been lingering for years.
    I'm here today asking for help--your help. I'm asking that 
our children be returned home to the United States without 
further delay.
    In the recent report on IPCA, India was called out as one 
of the over 20 countries who have been showing patterns of 
noncompliance resolving these open cases of abduction.
    India is persistently failing to work with the U.S. to 
resolve abduction cases and does not adhere to any protocols 
with respect to these cases.
    By December 31, 2015, 83 reported abductions remained open, 
which represent almost 94 abducted children. Sadly, my daughter 
Roshni is one of these 94 abducted children--94 unfortunate 
children who are called out as open abduction cases in this 
report.
    I have been in the U.S. since the year 2000 and was blessed 
with Roshni on Christmas Eve on 2007. She was an active 6-year-
old Girl Scout Daisy. She was loved by her parents and 
neighbors. She was attending kindergarten school in South 
Riding, Virginia. She enjoyed piano and swimming lessons. She 
was having the time of her life. She was blossoming, growing 
up.
    But all of a sudden on April 15, 2014, 2 years ago, when I 
was traveling for an overnight business trip, I was in North 
Carolina. She was surreptitiously taken by own father to New 
Delhi, India.
    I left in the morning, handing her over to him, as I would 
normally do whenever I went to travel. And in the evening I was 
trying to reach her on FaceTime and phone and nobody responded 
and I just had chills.
    I started called friends and neighbors frantically only to 
realize that I was facing the worst fear of my life. Once 
inseparable, she wouldn't stay without me even for a few 
minutes. But now she was snatched away all of a sudden from me.
    Looking back, I still shudder at the very thought of the 
night when I flew back to Virginia. Imagine coming back to the 
silence and emptiness of the abandoned home.
    It was left with nothing, nothing but memories and 
belongings of my only daughter suddenly taken across 
international borders. Her toys were all over, her bicycle was 
lying outside, and there was nothing else in that house.
    I was grieving that day. I was grieving as if--you know, 
she was alive but I was grieving because I knew he was not 
coming back. I knew he was not bringing Roshni back. He 
abandoned the house, the marriage, of course, the marital debt, 
his employment, his permanent residency status. He abandoned 
everything and just disappeared.
    In this case--in my abduction case it was not in defiance 
of any custody order. It was not a refusal from, a return from 
a vacation in India. It was a preplanned successfully executed 
kidnapping of my daughter.
    Two years before abduction he was arrested for domestic 
violence which took place in front of Roshni and then she also 
witnessed his arrest for DUI. And during the probation he had 
multiple violations for which he was facing criminal charges 
and even jail time. And Roshni continued to witness this 
discord, disagreements as I succumbed to the emotional, 
physical, and verbal abuse. But I could never muster the 
courage to get out. I couldn't have done what he did to me.
    Given his threats, I also enrolled Roshni in the CPIAP 
program. But due to pressure I had to give my consent for her 
passport renewal.
    I really wish when the Department of State called me for my 
consent and I asked them, given the situation, if at all this 
happens, if she is taken away will you be able to help me get 
her back and they said we do have measures in place and we will 
be by your side.
    I really hoped. They told me if you see that imminent 
threat to her abduction, do not renew her passport. I know I 
wasn't able to safeguard the passport but I wish they told me--
I wish they told the pandemic nature of this issue--how many 
cases are unresolved, how parents go through the trauma and 
they're not able to bring their children back.
    I wish they told me and I wish there were certain travel 
alerts in place for parents or exit controls for children who 
have ever been entered into this program. In my case, she was 
entered.
    Yes, I gave my consent. But then if there was some alert 
this could have been averted. But it was too late. I had lost 
her already.
    And my only recourse was legal and, you know, ongoing legal 
battle in U.S. and India. For 27 months I have been running 
from pillar to post. I have embroiled myself in international 
legal proceedings.
    I have faced extreme hardships at various fronts: emotional 
and financial and the harsh reality of navigating the legal 
system in India that is largely insensitive to parents of child 
abductions and ill-equipped to deliver from justice.
    During this time, the access to Roshni was curtailed for 
prolonged periods and as of now I have not seen her or even had 
a glimpse of her in the last 7 months.
    I had a custody order from Loudoun County Circuit Court. It 
gave me sole legal and physical temporary emergency custody and 
also stated that Loudoun County Circuit Court has both subject 
and personal matter jurisdiction over the father and the mother 
and full authority for my child's custody determination.
    Desperately seeking reunion with my daughter, I immediately 
went to India. This was 4 months after the abduction. I filed a 
writ of habeas corpus and in my case by God's grace I did get 
her interim custody back.
    But there were restrictions on her travel. I couldn't bring 
her back. I had gone for a few weeks. I thought I would be 
going back and forth.
    But then I had my daughter but I was trapped. Roshni was 
with me at my parents' house for the first 8 months and I was 
stranded and I fought jurisdiction challenges in Indian courts.
    But because of financial hardships I just couldn't keep up. 
I had to travel back and that took a toll on my child. She was 
heartbroken when I told her that I'll have to leave you with my 
parents.
    But I assured her I would come back for you and take you 
back to where you belong. But after that, once I left she was 
abducted again. The father took her for visitation and refused 
to send her back to my parents' house.
    After that, I just couldn't reunite with her. I got an 
order from the Supreme Court of India that stated when the 
mother comes back she will get the custody and at that time 
considering her plight I dropped everything again and I went 
back.
    But the father will obeyed the order. He told me you can 
come with any order from any court with armed forces--I am not 
handing Roshni back over to you. That's what he told me 
literally. I was standing on the street. And during this period 
it was almost for 7 months I stayed there. Roshni was called to 
Supreme Court of India multiple times. Once she was called in 
open court. I was sitting like this and she had to walk up to 
the judges to answer maybe the hardest question of her life--
dad or mom.
    She didn't look at me in my eye. I wasn't allowed to go and 
embrace my own daughter. I wasn't allowed to console her. I was 
told no, she is traumatized and she was sent back to the 
father, to the abducting parent because she was traumatized and 
the mother wasn't allowed to console her.
    Obviously, in those months she was--she was showing signs 
of parent alienation and again I lost her. This time it was to 
parent alienation. After 7 months she was called again for 
another in chamber hearing, the fourth one, and the case was 
disposed of.
    They sent me back to family court. So high court, family 
court--I went to the Supreme Court. The Supreme Court went back 
to family court and I'm still just going through the legal 
proceedings.
    While the justices delayed here, I am still hoping every 
single day that in the end it will be denied. She remains 
wrongfully detained in India without a valid U.S. passport 
because I cancelled her passport and without an Indian visa the 
absconding father was rewarded with her custody. He is not even 
employed.
    The courts in India took a straightforward child abduction 
case and turned it into a complex international legal web. It's 
like going to emergency room asking for medical help for a 
bleeding finger and doctors end up performing an open heart 
surgery on you literally without even giving you anesthesia.
    I feel legally humiliated, emotionally exhausted by lack of 
laws and awareness, systemic delays, and insensitivity of the 
judicial in India. But most importantly, it's the suffering our 
children are going through. It is unpardonable. The 
psychological trauma and ordeal that my little girl has 
suffered for over the past 2 years it just gives me chills.
    Parental alienation is child abuse. Abduction is child 
abuse. How can child abuse go unpunished for so long by not one 
but two countries? How can Roshni's government--the U.S. 
Government--fail her? Why is the U.S. so powerless? We parents 
do not understand this at all.
    U.S. is so powerless in helping her own children and 
citizens. Why? How could the world's largest democracy, India, 
who has such great ties with the U.S., how can it be a safe 
haven for child abductors?
    I'm sorry. I may be going a little over time. But I just 
want to highlight a few systemic challenges here as well before 
I close my testimony.
    Left-behind parents, regardless of their gender, ethnicity, 
nationality, they face extreme challenges in India seeking the 
return of their kids. Indian courts often choose to relitigate 
custody decision already made in the best interest of child by 
courts where the child was residing prior to abduction.
    And most of all, the left-behind parents rarely get access 
to their children and the children are systematically alienated 
and that is what happened in my case. They are alienated from 
their parents and all this is done in the name of welfare of 
children.
    I really want to underscore that even in the instances like 
mine where a left-behind parent gets a favorable order, these 
orders are ignored. They are violated. They are appealed for 
years and they are even reversed in some cases. That happened 
to me.
    Every parent's nightmare is the fatal loss of their child. 
It's the harsh reality of IPCA. I really want to call out this 
one case here that we heard of in April 2016.
    The tragic and mysterious death of the 6-year-old American 
child. Her name is Kiara. She was in wrongful custody of her 
mother in Mumbai. This should be a wake-up call to both our 
governments. There are much needed urgent and decisive actions 
that need to be done to protect victimized children from harsh 
realities of IPCA.
    Kiara's father had her sole custody from the U.S. and also 
from India but the order got appealed and Kiara met with an 
unnatural death during the pendency of these proceedings.
    Also, India's duplicitous treatment on IPCA cases depending 
on whether they are inbound or outbound doubts about India's 
commitment to upholding the rule of law, rights of children and 
families.
    For years we have been informed that India does not 
recognize parental abduction as a crime and often treats our 
cases as routine child custody cases.
    But then on the other hand, there was a recent outbound 
child abduction case and that shows that Indian court and law 
enforcement do in fact recognize parental child abductions as a 
crime and they'll not hesitate to apply any legal tools to 
return to seek the return of abducted children from other 
nations.
    So outbound abductions are obviously treated and we do not 
understand this bias. The Chief Justice of India recently made 
a public remark about left-behind fathers and he said that 
Indian court orders could not be mechanically enforced by 
Indian courts.
    He said U.S. courts have a different approach. Can Indian 
courts ignore the situation where the mother of her child was 
not represented in the U.S. court and was incapable of doing so 
on account of paucity of means?
    He said pointing out that situation the welfare of the 
child would weigh with the Indian court. I do not understand 
this. Why is there a bias? Why are they talking about left-
behind parents as fathers? It's both. It's fathers and mothers.
    Also, highlighting cultural and gender bias and I will 
close soon. Indian officials state that India has a 
responsibility to protect those who are fleeing from abuse from 
other nations.
    There's a euphemism used to describe the situation that 
women of Indian origin who claim abuse in countries of their 
habitual residence after reaching India they seek criminal and 
civil remedies in India by filing charges against, in most 
cases, their estranged spouses, estranged husbands.
    As a victim of domestic violence, I do empathize with 
anyone who has suffered consequences of DV. However, as a law 
abiding citizen, I do not support child abductions in the name 
of escaping abuse from DV, especially those mothers who abduct 
their children to India from United States where there are 
robust protections for victims of DV.
    The negative consequence on child abductions on victimized 
children cannot be justified by any allegations and for the 
Government of India to not offer any protection to our 
victimized children and failure to hold child abductors 
accountable has no moral or legal standing.
    India's Ministry of Women and Child Development is the key 
ministry tasked to address the issue of IPCA in India. But MWCD 
appears so speak on all sides of the IPCA debate, thereby 
raising serious doubts about its commitment to protecting 
children's rights distinctly from its efforts re women's 
empowerment in India.
    I continue to seek justice in Roshni's return. I continue 
to work and pay off the old and new debt. Roshni's father 
continues to hold our daughter as a captive, block all her 
access, damage my relationship with her beyond repair and erase 
me from her life.
    I'm really scared at times that she may think that I have 
abandoned her. So from these hallowed halls of the U.S. 
Congress I really want to implore my estranged husband, 
Roshni's father, in words of the great Indian poet, Tagore, by 
plucking her petals you do not gather the beauty of the flower. 
By snatching Roshni you are only despoiling her in a sense her 
childhood, her womanhood, and for Roshni I just want to tell 
her that I really love you and you may be miles apart but you 
are you always will be a part of me and no one can abduct that 
feeling from me. No one can steal that feeling from me.
    I am hoping that by sharing my personal story today I am 
not just seeking Roshni's return but I am also seeking the 
return of Alfred, Albert, Reyansh, Abdallah, Nikitha, Vihaan, 
Indira, Rhea, Trisha, Pranav, Kireeti, Krish, Kashvi, Archit, 
Ishaan, Siva Kumar, Avantika, Aryan and the list goes on.
    I am seeking return of these voiceless American children 
who are being denied the love of their left-behind mother or 
father whose human rights continue to be violated in a nation 
that we all admire, the one that shares our value and yet is 
unable to deliver justice to innocent victims of this crime.
    I plead the U.S. Government, the Government of India, the 
Department of State to intervene here, to interject, to do 
whatever it takes and help us bring our kids home.
    Thank you, Chairman Smith, for your continuing efforts and 
staying by our side and thank you for giving this opportunity 
to speak on behalf of Roshni and our children.
    [The prepared statement of Ms. Abbi follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
                              ----------                              

    Mr. Smith. Thank you so very, very much for your testimony 
and obviously this subcommittee--this chairman will continue to 
push.
    Mr. Cook.

  STATEMENT OF MR. JAMES COOK (FATHER OF CHILDREN ABDUCTED TO 
                             JAPAN)

    Mr. Cook. Good afternoon, Chairman Smith, all subcommittee 
members and all those affected by the issue of international 
parental child abduction in attendance today and those watching 
around the world.
    I am very sorry we know each other in this way. I am James 
Cook and today is the 2-year anniversary of our four children 
arriving in Japan.
    They are two sets of twins. Later this month will be the 1-
year anniversary of my Hague application to them to return to 
Minnesota.
    In this time, I have visited our children once and then 
slowly all contact was unilaterally severed from Japan.
    The last contact or reply from our children was late August 
2015. I have been constantly involved in my children's lives. 
Now, they have been made to believe I am dangerous and seek to 
do them harm. Children, who knew me as the unconditionally 
loving parent no matter what, have been led to believe I seek 
to avenge the alienation.
    Children who knew me as the parent that hugged them, kissed 
them on forehead, and in so many ways communicated my 
unconditional acceptance of them as people have been told to 
fear me and deny my attempts at access.
    I understand their situation and I know the choices they 
had to make to survive. But the emotional pain still remains. 
Perhaps the greatest sadness I have is the realization that our 
children will have long-term issues to resolve as human beings 
subjected to captivity and denied the fundamental connection to 
their parent that is necessary for healthy development.
    Please note, I will not mention or share our children's 
names in my testimony to protect their privacy. They are 
innocent and do not deserve any more trauma from this 
abduction.
    My testimony today will be divided into three sections. 
First, I will read an open letter to our children because I 
have been blocked from any access or means of communication 
with them.
    It's my hope that the video of this testimony will be shown 
or made available to them in Japan because this is the only 
means I have of reaching them anymore.
    Second, I'll provide you a view into the Hague 
implementation in Japan as I experienced the process. And 
third, I will offer brief recommendations to the committee.
    Hey, guys. This is Papa.
    I'm so very sorry for all you've been put through as a 
result of what has happened. You've had to make choices out of 
dependency and harmony within Ba-Chan and Ji-Chan's home. I 
understand those choices and I'm not angry at you or seeking 
revenge against anyone, as you may have been told.
    Every day of your absence starts for me the realization 
that you are not in our house and you are gone. Nothing has 
changed in any of your rooms. They remain just as you left 
them.
    The light blue bedroom still has the blue marker on the 
closet wall and the night stand drawer still smells like Count 
Chocula that you poured in there for yourself. The only 
evidence of what you did was the empty plastic cereal bag you 
left on your floor.
    Your closet has all your unopened toys sitting on the shelf 
and the mixture of socks from which you created your unique 
pairing each day. I want you to know I did not see you break 
it. So I agree you did not break it. Also Papa always carries a 
pencil in his car now. I love your individuality and 
personality. I want to possess the calm confidence in yourself 
that you do.
    The pink bedroom still has your ``Frozen'' sticker book and 
plastic purple unicorn on the night stand. Auntie Laura stayed 
in your room one night and she had cried because you were gone, 
but it looked like you were there.
    Like me, she expected to see you come into your room at any 
time, at any moment. Big Bear is still in your closet next to 
your dress-up clothes and your Barbies are still stashed in 
various drawers of your dresser.
    On my phone I carry the video of you dancing for me in the 
back hall of our school during the spring music concert. I love 
your happiness and unbelievable self confidence. I want to be 
fearless like you.
    In the green bedroom both of your beds are just as they 
were when you went to the airport. On your long dresser still 
sit your architectural Lego buildings. I've dusted them a few 
times.
    The perfectly drawn sketch of a hand still hangs above the 
bookshelf that holds all the Doraemon comic books you've read 
several times.
    The baseballs and numerous athletic and musical trophies 
are just as you left them. Your Pikachu alarm clock still ticks 
away, waiting to be used to wake you guys.
    I see violin sheet music and our piano and I nearly weep 
sometimes. Thing one--I love how you started playing piano 
every morning. The dedication and commitment you have always 
made to being better, smarter and the best you I admire. You 
will suck the marrow out of life by experiencing all that you 
can.
    I want your discipline and determination. Thing two--I 
admire your kindness and empathy toward others. I think of you 
when I need to be my best self and imagine what you would do.
    I cried for the first time in a while when I wrote this 
because my heart aches without you. I went into your closet and 
I saw multiple bags of clothes packed in haste. I think I know 
why those were packed and likely the mood under which you were 
told to pack. I am so sorry you had to experience being 
complicit in your own abduction.
    I told you it was only a vacation. What you experienced 
told you otherwise. You guys were 11. I am sorry I did not see 
what you saw. I know you were told not to say anything to me.
    I don't know how that affected you or damaged your self but 
I ache with you in that pain. I want you to know I have never 
stopped working for your return and everything I have done was 
to get you back home no matter what you have been told.
    You have been denied a critical relationship at a critical 
time in your lives. It's only later in life you will understand 
the lasting impact of losing our connection during this time. I 
know this and I wish others did.
    Do you think about our adventures to AEON from years ago? I 
know it was only to go eat Pepper Lunch at the food court and 
play Mario Cart until I ran out of 100 yen coins.
    Those were fun adventures. Remember our trip to Tokyo 
Disneyland 6 years ago and riding the shinkansen? Just the 
three of us guys eating 550 yen or 150 yen shinkansen ice cream 
and having fun. You guys were nervous because you weren't sure 
I really understood Japanese. But as with most things it all 
turned out for the best.
    When I came to Japan to visit in October I remember riding 
back for Kyoto to Tokyo with you two little guys sitting my 
lap. As tired as I was and jetlagged, it was the best 
shinkansen ride I can ever remember. I miss holding you two 
little guys and attempting to do pushups while you try to ride 
me like a horse. I miss carrying you on my shoulders and 
holding your little hands so you wouldn't use my face as a 
handle.
    I will come to pick you up and bring you home very soon. 
Please be ready and make it easy for everyone by cooperating 
when I come.
    I love you guys. I'll never stop until you are back home 
with me. I want you back. Love, Papa.
    Section two--in July 14, 2014, Hitomi Arimitsu of Nara, 
Japan--my wife, and our four children arrived in Japan for a 6-
week vacation.
    Prior to her departure, I drafted a simple agreement 
between her and I. I indicated my consent for her to travel 
with our children and a specific return by date of August 29, 
2014.
    This agreement was drafted with her knowledge, signed by 
both of us and notarized and was supposed to be part of her 
travel documents.
    Needless to say, she did not return and has been 
continuously aided and harbored by her parents, Yukinori and 
Hiroko Arimitsu of Nara, Japan. Mr. Yukinori and Hiroko 
Arimitsu and his family own Arimitsu Industry Company, Limited 
of the Higashinari-ku area of Osaka, Japan.
    In September, 2014, I clearly stated my plan to Hitomi to 
bring our children back to U.S. in December 2014. Hitomi 
refused and ceased communications with me. In October 2014, I 
visited Tokyo, Japan to visit our children for a 3-day weekend 
to go to Tokyo Disneyland and Disney Sea. My mother visited 
everyone in Japan in December 2014 prior to Christmas and she 
reported back to me that our children were different and seemed 
negative toward me.
    It was deeply upsetting to my mother that Hitomi had 
exerted significant undue influence over our children and 
significant parental alienation was obvious.
    In January, 2015, I commenced divorce proceedings against 
Hitomi in Hennepin County court for the sole purpose to force 
our children's return.
    Minnesota has a service first requirement and I followed 
the Hague process with Japan for service. The result was a 4-
month delay of service that my local court used to deny 
jurisdiction over custody of our children.
    Had Hitomi been present in Minnesota the service would have 
been days, not the 4 months caused by the Japanese central 
authority.
    I immediately sought out other avenues to our children's 
return with significant assistance and guidance from the 
Department of State.
    I began my Hague application on July 23, 2015. It was 
received on August 4, 2015 at the Department of State. The 
application was then forwarded to and received by Japan's 
central authority, the JCA, on August 7 and accepted officially 
on August 10, 2015. I had prima facie proved my Hague case.
    The legal case once started was to take 6 weeks according 
to Hague guidelines. The legal case started in August 19, 2015, 
when my legal team filed the return petition to Osaka family 
court. Two weeks later on September 4, 2015, the first hearing 
of our case was held and I was present in Osaka family court in 
Japan for this hearing.
    Hitomi was not in attendance and manipulated the court by 
saying I was dangerous and they should have extra security.
    I purposely added 2 extra days over the weekend to allow 
for meeting our children. Hitomi refused to cooperate with my 
request and told me my children were afraid of me.
    It's odd that the longer our children are away from me the 
more afraid and distrustful of me they have become. This is de 
facto parental alienation.
    Court investigators, or social workers, interviewed our 
children the following week. In the invitation sent to our 
children, the investigators explained what was going to occur 
and provided them significant information in advance.
    As a result, our children were very well prepped to answer 
exactly as they were coached by Hitomi. This included a 
recollection by our younger children about an event that 
happened prior to the conception.
    The second hearing of her case was held on September 30 to 
provide a status update for all parties. Neither Hitomi nor I 
were in attendance. This was the 6 week point the process.
    Our third hearing on October 13, a year to the day when I 
last saw our children in person was the trial hearing in front 
of the Hague three-judge panel.
    I added extra days over the weekend to this trip, again, to 
allow me time to meet with our children and again I was refused 
a meeting. I was even refused FaceTime or any type of 
communication.
    Under the Hague Convention, I am guaranteed some amount of 
access. If Hitomi doesn't want to do it she doesn't and Japan 
lacks the enforcement powers to make her comply.
    The first decision in our case came on October 30, 2015. 
The Osaka family court determined I had satisfied all Hague 
criteria for all four children but they only ordered the return 
of our two youngest children and used the court's discretion to 
overrule the Hague required return of our older children.
    The court deemed our 12-year-old sons to be of 
sophistication and sound mind to object. I am sure the 
Solomonesque splitting of the baby made sense to the 
pragmatically minded court. It appeared our children were 
little more than property to be divided.
    This was the 10th week of the case. The decision of the 
Osaka family court was appealed to Osaka high court by both 
Hitomi and myself in the first part of November.
    Let me repeat, in the first part of November. With no 
decision yet from the Osaka high court, on December 24 I filed 
for mediation to see if there was an alternative path to 
resolution and Hitomi refused to participate. So any solution 
via mediation was ended on January 18, 2016. No enforcement 
requiring her to participate. This marked the 25th week of our 
case.
    On January 28, 2016, Osaka high court rendered their 
decision in which they affirmed the lower court's decision and 
additionally ordered my older children, now 13 years old, 
returned, citing the psychological damage from splitting 
siblings.
    This decision came in the 26th week, \1/2\ year since the 
first court filing. The Assistant Secretary of State for 
Consular Affairs Bond was recently quoted in a major Japanese 
newspaper saying the legal process in Japan takes too long. My 
case is evidence and I now know my experience thus far was not 
unusual.
    This is not compliant with the Hague guidelines for 
expidient at all. During this time, my children were being 
alienated against me with no means of interim access to them. 
This lack of access is in violation of the Hague and as such 
Japan, again, is noncompliant.
    A week later Hitomi filed an appeal to Japan's Supreme 
Court and I filed for a warning from Osaka family court to 
Hitomi to comply with the Hague return order.
    This was the first of many steps that must be filed for 
enforcement of a decision--the first of many steps.
    I thought that a justly rendered and affirmed court order 
was enough to complete my Hague process. I was not even close 
to the end. Japan's family law system lacks strong enforcement 
power and contempt can be identified in many cases.
    The warning was issued to Hitomi with no result. Hitomi 
lost her appeal in Japan's Supreme Court later in February. I 
thought for sure this would be the end and our children would 
soon be heading back or I was going to pick them up.
    Again, not even close. The next enforcement step was filing 
for indirect enforcement--financial penalty. Hitomi appealed 
this and eventually lost this appeal too. The impactful portion 
of this indirect enforcement is the per diem fine due the 
petitioner, me in this case.
    HItomi was ordered to pay me a per child fine every day 
until the children are returned to the U.S. Hitomi, of course, 
is in contempt of this order and refuses to acknowledge or pay 
the debt that had been accruing since March 21, 2016. Japan 
even lacks enforcement powers over their own enforcement 
powers.
    The next step to enforcement is direct enforcement. Hitomi 
had appealed the direct enforcement decision and lost.
    I have never heard of an abductor being able to appeal 
enforcement of a dually rendered court decision. I'm submitting 
for the written record in my testimony a translation of the 
Japanese Hague implementation articles relating to the 
enforcement and to save time let me quickly summarize or give a 
quick interpretation of what's allowed. The court bailee can 
use whatever force is required to enter the house in pursuit of 
children.
    Once in the house, the bailee can restrain or remove any 
adult persons that are physically capable of restraining the 
children.
    At this point, the bailee's power only extends to 
requesting the children to voluntarily come with the bailee. 
Neither the bailee nor I are allowed to touch the children in 
the act of enforcement.
    Imagine this scenario as viewed by a child. Loud knocking 
at the door and the quick look outside reveals court personnel 
and possibly law enforcement. Panic ensues in the adults, 
particularly your mother. The knocking gets louder and the door 
may have even have been broken down to gain access to the 
house.
    With a broken down door and a screaming hysterical mother, 
the official-looking person enters the house. Once inside the 
official or police officer physically removes your mother from 
holding onto you and she is pulled away.
    This person that just tore your mother away from you now 
asks you if you will come with him to see your father who is 
waiting outside to take you away. What do you think the child 
will say? Yes?
    If the bailee determines that the children will never agree 
to come voluntarily then the enforcement attempt is 
unsuccessful and ended. This has happened in another Hague 
case.
    Yes. All it takes is for children to persist in saying no 
to foil direct enforcement. I am now 51 weeks into this process 
and both my attorneys in Japan and the Department of State are 
telling me to spend the time, emotion, expense, and hope to 
make this attempt.
    Their collective advice in the event of most certain 
failure is to try again and again and again and again. Why does 
Japan require such a traumatic event for a child in 
enforcement?
    In our case the Japanese courts have deemed that the 
children should be returned. A high court order with the 
Supreme Court declining to hear the case and no further appeals 
permitted. This flawed enforcement process should not be a 
reason or a means for Japan to evade its international 
obligation to comply with the Hague Convention on international 
child abduction.
    Quite simply, this should not prevent the return of our 
children to their rightful home with their father in the United 
States. I implore our government to address this issue with the 
appropriate Japanese authorities without delay, distraction for 
ambiguous diplomacy.
    The final step of my Hague process may be habeas corpus 
proceeding if direct enforcement fails. This step is not part 
of Hague convention. It is a patch to fix the known direct 
enforcement problems systemic in Japan.
    The Goldman Act report just released this week addressed 
the direct enforcement problem and states the non-compliance of 
Japan on page 32. I followed the process, endured the 
extraordinary slowness, received favorable court decisions in 
every instance been without our children and them without me 
this whole time and then at the end of this I am left to rely 
upon a highly traumatizing act as my path to returning our 
children.
    As Japan has designed it, I must remove our children under 
the Hague Convention in full view of their hysterical mother 
and that being the lasting image in their minds. Why make our 
children or any child suffer even more for the actions of their 
parent? This is beyond cruel and inhuman. Hitomi's wealthy 
parents, Yukinori and Hiroko Arimitsu, have been paying her 
legal bills and harboring her and our children in contempt of 
multiple court orders and in violation of international 
treaties their country ratified and acceded to.
    Mr. Yukinori Arimitsu's company, Hiroko Arimitsu, Arimitsu 
Industry Company, Limited, of the Higashinari-ku area of Osaka, 
Japan, I have been told has influence within Japan, and I 
cannot determine the degree to which the company has been 
complicit in the abduction.
    I was told of one special favor gained many years ago by an 
employee at the direction of Mr. Arimitsu to manipulate 
official government records to benefit Hitomi by allowing her 
to remain eligible for government benefits despite being 
married to a foreigner.
    I am concerned the same meddling is going on or is possible 
to circumvent enforcement. The JCA must not allow this type of 
cheating to continue if Japan wants to be respected 
internationally.
    Mr. Yukinori Arimitsu, Hitomi Arimitsu are a threat to 
Japan's integrity internationally.
    Section three--my written testimony goes into greater 
detail but I will mention some concepts to consider. Unlike the 
U.S., Hague decisions are not public in Japan. So each case has 
to proceed blind of any precedent unless experienced attorneys 
are willing to cooperate and receive permission from their 
clients.
    I recommend the Department of State provide a resource that 
catalogues the successful and unsuccessful individual cases in 
order to build the case law outside of Japan.
    Data privacy concerns can be managed with redaction of 
sensitive information. Additionally, I recommend a summary of 
the successful arguments and circumstances be compiled and be 
made available to left-behind parents in the process. I imagine 
that the National Center of Missing and Exploited Children 
could fulfill this role very well if chosen.
    Another point--the Goldman Act enumerates powers or actions 
available for enforcement with the recalcitrant country. I 
would like to suggest that these powers be made enforceable on 
a case by case basis instead of a global annual review that we 
have come to be seen can be held, influenced and manipulated. 
Resolution of the larger issue will come one victory at a time.
    Let's have enforcement and sanctions at the individual case 
level. This committee and the greater Congress can come 
together to tighten the vague language in the Goldman Act and 
remove much of the Department of State's discretion in imposing 
sanctions.
    Allow the Department of State to use their diplomatic 
efforts to inform and impart legislative decisions instead of 
allowing diplomacy to mitigate or avoid consequences.
    I recommend the chairman order the delivery of the original 
version of the Goldman Act report that was completed by April 
30, 2016 deadline. All edits to the original must be attributed 
and explained if the released versions differs from the 
original.
    In conclusion, I eagerly want the quickest proper return of 
our four children by the least traumatic means to their home in 
Minnesota, U.S., their habitual residence, their legal home 
state since birth. Then we can rebuild our relationships and 
resume our lives as a family together.
    Thank you, Chairman Smith, for this opportunity today and 
your continuing efforts to address this form of human rights 
violation.
    Your staff has been very helpful and I want to recognize 
their efforts publicly. A special level and type of thank you 
to all the left-behind parents and their aggregated efforts to 
move the issue to this point. It's on their collective 
shoulders I stand before you today. I am very sorry we all know 
each other in this way. To all left-behind parents watching 
this hearing, every one of our victories leads a path to the 
recovery of your children. You are not alone.
    Thank you.
    [The prepared statement of Mr. Cook follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
    
                              ----------                              

    Mr. Smith. Mr. Cook, thank you very, very much and I hope 
and pray that all of your children of all the left-behind 
parents are returned as quickly as possible and that someday 
they see not just what you did here and the love that you've 
exhibited for your children, all of you, and the others in the 
audience and others who are not here but all of the efforts.
    If ever there was a Herculean effort I have seen it time 
and time again from one parent after another who just have left 
no stone unturned in trying to bring their children home.
    So again, I want to thank you and for your very specific 
recommendations. They are excellent.
    Ms. Barbirou.

STATEMENT OF MS. EDEANNA BARBIROU (MOTHER OF CHILD ABDUCTED TO 
                            TUNISIA)

    Ms. Barbirou. Chairman Smith, thank you for committing your 
time today to address this issue of international parental 
child abduction, which I will continue to refer to as IPCA, for 
brevity, and the implementation of the Goldman Act.
    I would also like to extend my gratitude to Ms. 
Christensen, who testified earlier today. She also mentioned a 
case she wouldn't name by name but that a lot of activity had 
been occurring a day after one parent had called and said 
activity was happening.
    That was my case. So I'd like to extend gratitude to her 
for knowing what was happening and explaining that. And also to 
my fellow parents who sit with me today. I have held back so 
much emotion on my own and for your own stories and your own 
children you just--you have touched my heart in so many ways, 
even knowing that I can clearly identify with everything you've 
been going through. So thank you for your testimony.
    And I offer that mine won't differ very much because all of 
our stories have so many common elements. So with that, as many 
of you know the enactment of this legislation, the Goldman Act, 
is of vital importance to the thousands of children who become 
victims of IPCA in our country each year.
    For many parents seeking the return of their illegally 
kidnapped children abroad, the Goldman Act is a source of hope 
in the otherwise dim realities that our lives become after our 
children are snatched from our lives, and theirs, exposed to 
the horrors of a life on the run, often aided by the 
governments of the foreign lands to which they are kidnapped.
    It is a source of hope that finally the right tools will be 
utilized to secure justice for our innocent children, ensuring 
the full force of the American Government to secure their 
rights of protection as citizens to return home where they 
belong.
    That is the power, purpose and hope embodied in the Goldman 
Act that has brought us here today. I am honored to have been 
invited to testify today after having sat before this very 
committee for the same purpose just 1 year ago.
    I'm also terribly saddened, personally that I return and 
that my son, Eslam, remains illegally detained in Tunisia. I am 
also saddened for the thousands of children who remain abducted 
or detained as hostages in foreign lands around the globe.
    Exactly 4 years, 8 months and 3 days ago, my children, 
Eslam and Zainab Chebbi, were illegally abducted to Tunisia by 
their father, a Tunisian native. At the time of their kidnaping 
in 2011 I had full custody of both children and retained a 
judicial order preventing either of us from traveling outside 
of the United States with either child.
    In January 2012 I boarded a plane to Tunisia to be close to 
my children while I pursued the application of my U.S. divorce 
and custody documents in order to bring them home.
    At the time, I was promised by my then Tunisian counsel 
that I would be in Tunis for a total of 3 weeks and could 
return with both children to the United States in that time. It 
was 10 months before I could obtain a first ruling through the 
Tunisian judiciary upholding my rights of custody of Eslam and 
Zainab here in the United States.
    A few months later in May 2013 a Tunisian appellate court 
ruled for enforcement of Eslam and Zainab's return to me in the 
United States.
    By August of that year, I was assured of pending 
enforcement and a return home with both children. In the face 
of what had by this time accumulated into extensive 
interventions by the Department of State, the Department of 
Justice and multiple Members of Congress, I chose to believe.
    Based on this belief, I decided to honor by daughter 
Zainab's wishes not to return to her father following a weekend 
visit and to rely on the legal process for enforcement for our 
reunification with Eslam.
    I made that decision in September 2013 and Eslam has 
remained isolated from his sister and I ever since. Due to 
intentional interference by the Tunisian Government to prevent 
enforcement of its own court's judicial order, Eslam remains 
illegally detained as we continue to seek enforcement of that 
2013 appellate court judgment upheld by the Supreme Court of 
Tunisia in 2014, today.
    Due to illegal extrajudicial interference, Zainab and I 
last saw and hugged Eslam exactly 2 years and 15 days ago. She 
and I returned to the United States without Eslam in August 
2014.
    Within the past 2 years, we received a second Tunisian 
primary judgment granting custody of Eslam and Zainab to me in 
the United States and a second appellate court ruling for 
enforcement of Eslam's return home to our family in the United 
States. These are all Tunisian judgments. There are five now.
    In March of this year, the Tunisian Ministry of Justice 
informed the U.S. Consulate and Embassy staff that this 
judgement would be issued and enforced leading to Eslam's 
return home to us in the United States by the end of May.
    Clearly, that timeframe has passed. The entirety of these 4 
years, 8 months and 3 days since Eslam and Zainab were 
kidnapped from our home, the State Department, the FBI and 
numerous esteemed Members of Congress have mounted incredible 
diplomatic and political efforts in support of our family with 
the Tunisian Government for its adherence to a rule of law and 
compliance with its new enacted constitution for enforcement of 
its court's judicial rulings and Eslam's return home.
    My family is ever grateful for these necessary and powerful 
steps. Yet while we applaud these great efforts we continue to 
accrue judicial order after judicial order. The Tunisian 
Government continues to provide baseless assurances and Eslam 
remains illegally detained in Tunisia.
    I wish to step away from our family circumstances for a 
moment and return to the Goldman Act and address you as an 
advocate for our innocent children, the true victims of this 
crime.
    According to the FBI, more than six children are reported 
as abducted by a parent in this country every day. Previous 
State Department statistics indicate that more than half of 
these children are kidnapped to foreign lands.
    In 2014, Congress unanimously voted and the President 
signed into law this powerful legislation that protects the 
rights of our abducted American children by ensuring that the 
strongest penalties will be rendered in the face of their 
prevented return to their homes here in the United States.
    Clearly, the U.S. Government fully believed that the powers 
embodied by the Goldman Act were varied, necessary, and 
sufficient enough to secure the immediate return of the 
thousands of American children victimized by IPCA each year. 
Yet, to this day, the Goldman Act has only been enforced to the 
least extent possible and mostly in demand and review of annual 
compliance reports.
    In turning to the 2015 compliance report, I would like to 
applaud the great strides that have been taken to present a 
clearer and more honest picture of what is occurring with our 
abducted children abroad.
    In it, we have a stronger glimpse not only of what actions 
have been taken in each country where American children have 
been kidnapped, but also of the recommended steps toward 
improved resolution of abduction cases in the future.
    Sadly, not only was this report delivered late but it also 
leaves the same alarming concerns regarding the enactment of 
this law that I addressed before this subcommittee just 1 year 
ago.
    After reviewing the 2015 report, I have no clearer 
understanding of how many children have been kidnapped 
internationally by a parent from the United States and whether 
there has been an increase, decrease or no change in the 
incidence of this crime.
    Simply providing an accounting of cases without identifying 
a total number of children affected does not bring us any 
closer to an understanding of the breadth of this crime on the 
American public.
    By my count, it takes an average of 5 years to secure the 
return of a child who has been abducted by a parent 
internationally, if a return ever occurs.
    Previous State Department statistics indicate that only 18 
percent of IPCA cases result in a return. Considering that the 
average age of abduction is between 6 months to 6 years, we 
must understand the devastating reality that for those lucky 
enough to return home they will have spent half of their lives 
as captives on the run.
    As Ms. Abbi's testimony exemplified, having every available 
statistic about the number of children impacted by this vicious 
crime is imperative to every prevention and return effort 
embodied in this act.
    Second, not once did any of the descriptions of actions 
taken with any of the cited countries or the recommendations 
for future action incorporate any of the prescribed options 
three through eight as required to be taken with respect to 
noncompliant countries per Section 202(d) of the Goldman Act. 
Here forward, I'm going to refer to these as the 202(d) actions 
for brevity.
    In fact, I have not witnessed one instance where any agency 
within our Government has utilized the authorities of actions 
granted through the Goldman Act to implement any of the 202(d) 
actions to be taken with respect to noncompliant countries.
    Respectfully, our children's lives do not rest on the 
actions of one governmental department but on the collective 
action and escalating action of all government agencies 
wielding both their combined and independent powers.
    There has to come a point where every representative of the 
U.S. Government becomes accountable for the implementation of 
202(d) actions to secure the immediate return of abducted 
American children.
    As Dr. Brann has already stated, Sean Goldman himself was 
not reunited with his father on U.S. soil based on the actions 
of any one agency within our Government. It took coordinated 
interventions across multiple agencies and congressional action 
to prevent a financial exchange with Brazil to secure his 
return home.
    It is my understanding that the lessons learned from the 
Goldman case were embodied in this act with the implicit 
intention of securing immediate returns for other abducted 
children abroad, not as an opportunity to reengage in or 
intensify long-term diplomatic efforts.
    Given the Goldman example and the authorities granted under 
this law, I and thousands of other seeking parents rejoiced at 
the hope that enforcement of the Goldman Act would result in 
the immediate return of our illegally detained and abducted 
children.
    Sadly, today, you can stare but I stare at times--we had a 
photo of my son here when he was 5--thank you so much. Yes. So 
when I stare at my 5-year-old son, Eslam, and wonder--I wonder 
how I could look him in the eye when last we embraced which was 
2 years and 15 days ago and explain that the Government of the 
United States will enact a law granting authority to publicly 
condemn Tunisia for failing to uphold its new Constitution and 
rule of law, to delay or cancel any of the two official visits 
that Tunisian leadership has enjoyed at the White House since 
your abduction or to withdraw, limit or suspend any of the 
billions of security and development assistance paid for in 
U.S. tax dollars to the Tunisian Government, but that no one 
will act upon it.
    I wonder if any of us could tell our children with a 
straight face that we are fully aware of the psychological, 
emotional and maybe even physical abuse that they are likely to 
incur as a result of being parentally abducted but that 
politics and diplomacy take precedence.
    I wonder how Stan Hunkovic, father of Gabriel and Anastasia 
who were abducted to Trinidad and Tobago by their mother in 
2010, could look his children in the eye when last the embraced 
4 years, 7 months and 16 days ago and explain that the United 
States could take strong immediate action that could secure 
their return home but simply won't.
    Chairman Smith, esteemed members of the subcommittee and 
guests, what I need, what Eslam needs, what Gabriel and 
Anastasia need, what all of our children kidnapped abroad need 
is every representative of our Government to take every 
opportunity as it arises to put our children first.
    We need every 202(d) action authorized by the Goldman Act, 
most specifically actions three through eight, to be enforced 
at every opportunity whether within a committee of Congress, 
through the Federal budget with respect to foreign aid 
distributions to countries cited as persistently failing to 
return abducted children home, through a policy of consistent 
issuance of extradition warrants in all IPCA cases and 
persistent pursuit of their enforcement or by the refusal of 
official state visits and the suspension or withholding of 
development security or any other form of foreign assistance.
    The opportunities to secure our children's immediate return 
to their families in the United States are limitless. We and 
our abducted children care not from where within our Government 
action is initiated.
    We care only about the result and our children's return 
home. What I need from my Government to secure Eslam's return 
home is the immediate and uninhibited enforcement of 202(d) 
actions three through seven with respect to Tunisia, 
specifically a public condemnation and the suspension of all 
foreign aid until Eslam is returned to our family in the United 
States.
    I end my testimony with a reiteration of my statements 
before this subcommittee 1 year ago. To be clear, the Goldman 
Act as it is written is a fair and powerful law that includes 
strong remedies which, if applied, will result in the return of 
our illegally detained abducted children abroad.
    It is my firm belief that with the application of any of 
202(d) actions four through seven, Eslam Chebbi and Gabriel and 
Anastasia Hunkovic will be returned to their homes in the U.S. 
with immediacy. Diplomacy and politics have a place and 
purpose.
    But when a country persistently fails to return illegally 
abducted American children home swift and immediate action must 
be taken by all. As Secretary Kerry proclaimed, there can be no 
safe haven for abductors and all of the tools available must be 
used to help resolve cases of IPCA.
    Thank you for your time and consideration and for the honor 
of testifying before you today.
    [The prepared statement of Ms. Barbirou follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
   
                              ----------                              

    Mr. Smith. Ms. Barbirou, thank you very much for your 
testimony. Like the others that preceded you, it is moving. 
Welcome back. But I wish you weren't here, frankly, except 
perhaps talking about a success which we've had in very, very 
few instances. So thank you again for your very candid and 
strong recommendations as well.
    Let me just say, and I'll throw it out for any comments you 
might want to make, a few things. Ms. Abbi, you talked about 
why is the United States so powerless. I have asked myself that 
question.
    I authored the Goldman Act. It took 5 years to get passed. 
Ran into all kinds obstacles, executive branch as well as 
legislative branch, which to this day I find discouraging but 
motivating simultaneously because you can't accept no for an 
answer in this job.
    You talked, Dr. Brann, about how Brazil has not responded 
to demarches. Last year's report--because there is an action 
report as to what 90 days after the issuance of the report that 
has been now sent to Congress, which would take us to early 
October 90 days or through any time between that 90-day period 
actions by the executive branch can be promulgated.
    And frankly, last year I was gravely disappointed in both 
the report and the actions. I said so. I wasn't the only one 
that said so very clearly. You know, a demarche is a first step 
but a very mild one. You then need the Goldman Act to make 
demarches in the past. The other sanctions that are prescribed 
in this, actions by the Secretary of State, are very real and 
powerful if they're used. If they're not used, as I said to Ms. 
Christensen, they become toothless.
    The countries quickly look at that and say oh, that's just 
something that's on a shelf somewhere--they don't mean it--it's 
just an exercise in duplication or the articulation of 
something that they have no intent of enforcing.
    So I think this year will be the test because the report 
has been improved. Not there yet, frankly, but it is improved. 
I wondered and I asked Ms. Christensen earlier, you might have 
noted, about these resolved cases. We have no idea what that's 
all about.
    There's no breakout as to was it aging out, what was the 
cause of these cases dropped off. That's not a real resolution. 
Return of child is the resolution that we are indeed looking 
for even though there are some other criteria prescribed in the 
law for what that means.
    I thought, Mr. Cook, you made so many very--all of you 
did--so many wonderful recommendations and observations and the 
idea of summary of successful tactics, for example, when the 
cauldron of having your child or children abducted is 
compounded by what do we do next, well, there is a series of 
best practices, effective strategies and the more that is 
shared the better and certainly the parents should be first to 
get that. I thought that, among many other ideas that you made, 
were excellent.
    And then Ms. Barbirou, the idea of full force--full force 
of Goldman, full force. These sanctions are very real and when 
they start getting meted out I absolutely guarantee countries 
will take notice if they are, again, enforced to the least 
extent possible, as you just testified. That means ``hit me 
again--it doesn't hurt.'' The countries will not take us 
seriously and therefore they will not take your legitimate 
concerns and return of your children seriously.
    So it's great when you're dealing with an interlocutor or a 
country that really cares and many of the central authorities 
do, I have found. But when it gets to another level of 
government and even when you go to court, one of the biggest 
Achilles' heel in all of this, as you all have noted, is the 
enforcement and as noted by the report. You know, Japan's 
enforcement is tragically flawed. It just doesn't work. I 
remember when David Goldman got his son back.
    We were in the consulate in Rio de Janeiro and it was a 
terrible circus that was carried on by the other parties, 
walking him through the streets, and I was standing right next 
to him when he burst out in tears and said, ``Look what they're 
doing to my son,'' similar what was said earlier about, you 
know, the scenario of breaking down the door or something. Very 
benign methodology can be employed to help bring this all about 
in a way that does not further traumatize a child or children.
    Any comments you might want to make? I plan on having 
another hearing--hearings, and I'm never going to stop as long 
as God gives me breath, but hearings on implementation of this.
    I do hope and I thank our friends from the State Department 
for staying here and hearing all of you. That is wonderful. I 
appreciate that. I know you know how important it is that you 
hear these cases and take it to heart.
    But Japan needs to really be on the list. I don't know how 
they didn't qualify. Everything but yet a pattern of 
noncompliance. It's just inexplicable, in all candor.
    But so the idea of sanctions, if any of you want to weigh 
in on that. You already did, Ms. Barbirou. If you want to do it 
again that would be appreciated. Using all the tools prescribed 
by Goldman, and then the issue that I asked repeatedly, Ms. 
Christensen--I've been asking it. But even before the Goldman 
Act was enacted and that is the importance of MOUs. If they're 
entered into in good faith and robustly carried out, especially 
by our side, they'll work. Any treaty--any cooperative 
agreement only works if at least one side is pushing hard. The 
other side will take note, particularly when there's an array 
of sanctions hanging over them like a sword of Damocles.
    So these MOUs are essential, and when I was in Japan, for 
example, I talked to our Embassy people there. They said the 
left-behind parents--the Hague folks are, now we know, are 
having trouble who are under the rubric of the Hague but those 
before the 40-odd cases--I mentioned a few before--I just can't 
even begin to fathom the sorrow and pain you all experienced.
    So I think the MOUs--because we don't want deja vu 
happening all over again, to quote Yogi Berra, where India then 
agrees to the Hague and then it may be just as ineffectively 
implemented as Japan is doing right now, again, with 
enforcement being the weakest link and then all those who are 
grandfathered out from day of ratification. There has to be a 
simultaneous pursuit of that and whoever the next President is 
I can guarantee I will be at their door--I won't be the only 
one--saying that we got to make Goldman work.
    MOUs need to be promulgated and sanction. If you don't 
sanction, if you're acting or have people hearing your pleas 
that are truly people--men and women of good will maybe you'll 
get somewhere. But nothing sharp. It's all of our civil rights 
laws always had the catch of Federal funds being proscribed 
whether it was women in sports, the Title IX, the Title VII--
all these civil rights laws didn't count on good will, not one 
of them.
    The Trafficking Victims Protection Act, which I also wrote, 
has strong, strong implementation factors to it in terms of not 
just naming and shaming. It is naming, calling out, and then 
sanctioning if the country is not doing what they ought to be 
doing.
    So if you want to make any final comments. All of your 
statements, because I know some of you, I've noticed, jumped 
through--will be made a part of the record in their totality.
    I'm planning, hopefully, even if we're not in session, 
writing a provision for it. October 9th would be the date, 90 
days later pursuant to Goldman, that action has to be taken. 
Not later than is the way the law reads, but anytime before 
that. September 15th, whatever day of the choosing, Secretary 
of State Kerry, the administration, can say this is what we're 
doing to Brazil, this is what we're going to impose on India. 
Japan--again, they have not made this naming and I find that 
appalling. Tunisia, which is also on the list and the other 
countries as well. So it's time to say we've got tools--we're 
going to use them. So if you want to make any comments on that 
please do.
    Mr. Cook. I was going to say, Representative Smith--
Chairman Smith, the parts I didn't elaborate too much in my 
statement but in the written testimony a larger thing, I guess 
I would say, because I've been working with Japan for 30 years 
and I don't claim to know the Japanese mind or culture. But 
what I do know is--or what I've experienced, I should say, is 
that any ambiguity is used to their greatest advantage.
    Any sort of ability to vacillate is used to their greatest 
advantage, and so I have had some people tell me that diplomacy 
has worked. Just in the same measure I will say that we have 
been able to cut great caverns in the Earth via the glacier, so 
the glacier works. But there are other more effective means of 
accomplishing what we want to accomplish and the one thing--one 
thing I know very well about the Japanese, just as we alluded 
to other, as in India, there have to be consequences--absolute 
firm consequences.
    One of the things I just threw out there, and I have no 
idea if it's at all--and I wrote in my written testimony I have 
no idea if it's even doable is dictating, so to speak, to Japan 
and say part of your implementation as United States and stay 
on our good side is that--I can't remember, recite it from 
memory now--but a Hague case to a first decision will not take 
any more than 10 weeks. In the event it takes more than 10 
weeks, the--I'm trying to remember--the left-behind parent will 
be reimbursed 100 percent of all expenses and costs to that 
point and going forward until there's an ultimate conclusion.
    Second, in the event that there's a favorable--and there's 
a order of return, then the taking parent has 30 days to return 
the child. In the event that that 30 days lapses then the 30-
day onus goes upon Japan.
    In the event that that lapses--and this is the part where 
it gets maybe way beyond what we can do--that--so after the 
country, Japan, basically violates what they said they were 
going to do by signing the Hague then they're giving implicit 
consent for the U.S. to go in and complete the enforcement by 
any means, methods, or personnel possible and they have the 
task--then also the country Japan would hold harmless on behalf 
of their citizen any sort of legal legislation, violations of 
laws, norms or whatever that they may throw upon the taking 
parent--or the left-behind parent--that sort of stuff. And just 
have it be absolutely this is it. I mean, this is how it rolls 
out. In the event you don't do this, this is what happens. In 
the event you don't do this, this is what happens.
    And another larger point, because I'd like to divest a lot 
of the discretion for enforcement from the Department of State 
and give them a narrower field in which to play and say these 
are--as the Department of State you're the face of us around 
the world. It would be great for you to go and explain to the 
world this is how we run things, this is how we are going to do 
it rather than saying what do you think about our policies.
    Then they're just toothless and they have no point 
because--and I'll say specifically with Japan you never give 
them an opportunity to negotiate anything because they will 
take every opportunity to gain ground and then that is ground 
acceded and that's the point from which our negotiations start 
again anew.
    There is no--and it sounds strict to say this--they are 
quite often incapable of negotiating in good will. There always 
has to be the stick, so to speak. And so that's my point on 
that.
    Ms. Barbirou. Thank you for the opportunity to respond 
again. I did just want to note, you mentioned there are people 
who care in these other governments in these other nations.
    It is not that it is full of people who are uncaring and in 
fact in this room is a member of the Tunisian Embassy who is a 
very caring and committed individual to the law and the rule of 
law whom I believe would like to see our case resolved. So to 
him and to other members of the Tunisian Government who are 
attempting to act in good faith I appreciate that.
    But that does not dispel the fact that the government 
itself has ultimate authority over the enforcement of the law 
in all of these countries. And so the recommendations of the 
Goldman Act or the actions within the Goldman Act are not 
personal and they are absolutely necessary, as you stated, for 
the actual enforcement of the return of our children, which is 
the whole goal and purpose.
    And so I stand by that but also thank all of those who do 
care and who are acting in their best efforts to ensure that 
there is resolution to our case.
    In terms of what Mr. Cook just said, it's interesting. We 
had similar thoughts. And so in my recommendations, in my 
written testimony I provided a copy of drafted legislation that 
I wrote that offers a means of providing punitive damages to 
parents that are paid for by the countries that are found to 
have a persistent--to have a pattern of noncompliance in 
persistently failing to return American children.
    There is that second definition of what noncompliance 
means, and when a country is persistently failing, clearly, 
even if verbally they are saying we are going to try and we are 
doing our best, then by action they are actually outrightly 
refusing.
    And so if our children are illegally abducted in those 
lands then they are taking on the onus and responsibility of 
the parent who has illegally kidnapped them there. And when 
parents are devastated financially in this country, doing 
anything and everything that they can, wielding legal fees and 
translation fees and sometimes going into bankruptcy, doing 
travel exchanges, all of those things at our own cost, it's not 
fair.
    And I think at some point I am hopeful that we see 
additional legislation that provides an opportunity for a pot 
to be made that benefits the parents in a way that we are not 
so financially devastated by this crime.
    I also just want to ask that, again, as I stated last year 
and stated also in my testimony that one of the recommendations 
I have is that the act contain an explicit requirement of 
accountability for the total existing cases of IPCA by a 
country including newly reported cases and the total number of 
children involved in each case represented in future compliance 
reports under the act.
    I know that that may seem like a minimal thing. This 
report, as far as I could see, says there is more than 600 
children who were abducted abroad. That is not a solid number 
and in this country where we have no accountability to the 
total number of children who are impacted by this crime it is 
vitally important that we have at least a basis of 
understanding of how many children we're talking about here 
because when the net widens then the opportunities for others 
to get involved for prevention and return widens as well.
    I have other recommendations I hope that you'll review and 
I thank you so much.
    Ms. Abbi. I kind of missed covering that in my testimony 
before. I wanted to bring your attention to the Ministry of 
Women and Child Development's draft that was recently posted on 
June 22, 2016, and that draft bill is on its Web site and I 
have linked it to my testimony. And that would implement Hague 
abduction convention accession to Hague Convention in India.
    While I personally welcome this development, I'm really 
concerned given the MWCD's dual missions and track record which 
has been kind of mixing up IPCA, which is a child's right 
issue, with women's issue in India.
    For the progress on IPCA in India will really require clear 
and unwavering commitment from the Government of India 
including MWCD to ensure all IPCA cases are treated fairly 
regardless of the abducting parent's gender, nationality, and 
ethnicity in a timely manner.
    That draft is linked to my testimony, but one gap I wanted 
to bring to your attention is its lack of applicability to pre-
Hague cases, and this not only concerns me but also the left-
behind parents who have pending cases in India.
    So I really urge both nations to ensure that victims of 
IPCA in India whose cases are pending must be resolved on an 
urgent basis with the bilateral framework. I know we have 
talked about it before with Department of State, but that 
really has to be implemented prior to India's ratification to 
Hague abduction because we don't want to be in a situation 
where they would accede to Hague Convention but we are still 
high and dry here, you know, hanging between hope and despair 
and it's mostly despair most of the time.
    So I really just wanted to call out. Thank you so much.
    Dr. Brann. And I have one recommendation. I'll be brief. 
Regarding Brazil, there is a simple way to change the 
Government of Brazil's approach to this issue. Brazil benefits 
from the Generalized System of Preferences program that 
provides nonreciprocal duty-free tariff treatment to certain 
products imported from certain countries.
    Brazil is the third largest beneficiary under the program 
with its duty-free imports at $2.3 billion annually. 
Interestingly, 7 percent of all--that's 7 percent of all 
imports and that authorization expires next year.
    So the idea that we don't have any leverage in the near 
term is ludicrous. We have this ability and in fact we actually 
have no obligation to provide this duty-free treatment of 
Brazilian goods.
    If Nico and the other abducted American children aren't 
brought home then we should just simply revoke Brazil's 
benefits under this program.
    Facing a loss of more than $2 billion annually, which is a 
free benefit we just give away, I'd be shocked if the 
Government of Brazil doesn't find a way to fix its laws so that 
courts here decide convention cases in 6 weeks or less.
    Now, when the Government of Brazil determines a child was 
wrongly abducted and they don't comply with that within the 
timeframe, those are issues that are perpetuated at each level 
of the court above, right.
    So it's the first level, then the second level and the 
third level and the fourth level. One of the other things we 
could ask the Brazilian courts to do is at each level honor the 
6-week commitment, meaning if the first level doesn't make that 
decision within 6 weeks we can at the very least ask that the 
next level try to expedite it and honor that 6-week commitment 
and if they don't then we continue to offer alternative 
solutions such as the one that I just offered. Thank you.
    Mr. Smith. Just for the record, I would like to ask 
unanimous consent that Elijah Jackson's letter regarding the 
abduction of his child to Namibia be made a part of the record 
and a letter from Congressman Jim McDermott regarding the case 
of Jeffrey Morehouse whose son was abducted to Japan be also 
made a part of the record. Without objection, so ordered.
    I just want to thank you so much. As I said, we will have a 
next hearing in September or October. Hopefully the 
administration will move robustly on the sanctions part, the 
second shoe that now drops, and we will stay tuned.
    But we will have a hearing to talk about that, to see what 
it is that they are doing. I plan on initiating a letter to the 
Secretary of State, taking many of your comments today.
    I thought the idea of saying enforced to the least extent 
possible was a very strong sense of we want more. You deserve 
more and the law gives you far more than that has been deployed 
1\1/2\ years or so to date.
    So this is a great opportunity to make this Goldman Act 
work and so we'll initiate a letter to the Secretary. I'm sure 
both sides of the aisle members will want this signed, saying 
come on, Mr. Secretary, now is the time--let's do it. And so 
that'll be something as soon as we get back. Obviously, 
everybody is out to their planes now because we just ended 
session for 6 weeks.
    But--well, longer than that, but looking forward to that 
next hearing and we do look forward, I do, and hope that the 
administration will really be very strong because I think now 
is the time to draw that line in the sand that says we're not 
kidding.
    Hearing is adjourned.
    [Whereupon, at 4:41 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
         
         
         


                                 [all]
</pre></body></html>
